<html>
<title> - FROM CANDIDATES TO CHANGE MAKERS: RECRUITING AND HIRING THE NEXT GENERATION OF FEDERAL EMPLOYEES</title>
<body><pre>[Senate Hearing 110-525]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-525
 
                   FROM CANDIDATES TO CHANGE MAKERS:
               RECRUITING AND HIRING THE NEXT GENERATION
                          OF FEDERAL EMPLOYEES

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 8, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                     U.S. GOVERNMENT PRINTING OFFICE
43-085 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
               Thomas Richards, Professional Staff Member
             Jennifer A. Hemingway. Minority Staff Director
                     Jessica Nagasako, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     2

                               WITNESSES
                         Thursday, May 8, 2008

Robert N. Goldenkoff, Director, Strategic Issues, U.S. Government 
  Accountability Office..........................................     5
Angela Bailey, Deputy Associate Director for Talent and Capacity 
  Policy, U.S. Office of Personnel Management....................     7
John Crum, Ph.D., Acting Director, Office of Policy and 
  Evaluation, U.S. Merit Systems Protection Board................     9
James F. McDermott, Director, Office of Human Resources, Nuclear 
  Regulatory Commission..........................................    11
John Gage, National President, American Federation of Government 
  Employees, AFL-CIO.............................................    23
Colleen M. Kelley, National President, National Treasury 
  Employees Union................................................    25
Dan Solomon, Chief Executive Officer, Virilion, Inc..............    27
Max Stier, President and Chief Executive Officer, Partnership for 
  Public Service.................................................    29
Donna Mathews, Principal, Federal Sector Programs, Hewitt 
  Associates LLC.................................................    31

                     Alphabetical List of Witnesses

Bailey, Angela:
    Testimony....................................................     7
    Prepared statement...........................................    54
Crum, John, Ph.D.:
    Testimony....................................................     9
    Prepared statement...........................................    58
Gage, John:
    Testimony....................................................    23
    Prepared statement...........................................    75
Goldenkoff, Robert N.:
    Testimony....................................................     5
    Prepared statement...........................................    39
Kelley, Colleen M.:
    Testimony....................................................    25
    Prepared statement...........................................    81
Mathews, Donna:
    Testimony....................................................    31
    Prepared statement...........................................   102
McDermott, James F.:
    Testimony....................................................    11
    Prepared statement...........................................    71
Solomon, Dan:
    Testimony....................................................    27
    Prepared statement...........................................    89
Stier, Max:
    Testimony....................................................    29
    Prepared statement...........................................    92

                                APPENDIX

Background.......................................................   120
Copies of job applications submitted for the Record by Senator 
  Voinovich......................................................   126
Post-Hearing Questions for the Record submitted from:
    Ms. Bailey...................................................   132
    Mr. Crum.....................................................   142
    Mr. McDermott................................................   148


                   FROM CANDIDATES TO CHANGE MAKERS:
                     RECRUITING AND HIRING THE NEXT
                    GENERATION OF FEDERAL EMPLOYEES

                              ----------                              


                         THURSDAY, MAY 8, 2008

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will come to order.
    Again, I want to thank you for joining us to discuss the 
Federal hiring process and how agencies can improve the way 
they recruit and evaluate the next generation of Federal 
employees. We would like at this point in time, to look at the 
21 Century Federal workforce and look at it in terms of what we 
can do to make the recruitment and hiring process better.
    Today, we are in a crisis. The hiring system is broken. 
Every day talented people interested in Federal service are 
turned away at the door. Too many Federal agencies have built 
entry barriers for younger workers; invested too little in 
human resources professionals; done too little to recruit the 
right candidates; and invented an evaluation process that 
discourages qualified candidates. As a result, high-quality 
candidates are abandoning the Federal Government.
    The Federal Government has become the employer of the most 
persistent. The Office of Personnel Management estimates that 
30 percent of the Federal workforce--approximately 600,000 
employees--will retire in the next 5 years. Agencies have an 
opportunity and a challenge. The opportunity is to hire the 
next generation of highly talented and dedicated employees. The 
challenge is how to fix the recruitment and hiring process that 
is outdated and broken.
    Senator Voinovich and I have been working on this, and he 
is a champion of moving this along as well.
    OPM is responsible for rating agencies on their human 
capital activities, which includes hiring practices. Agencies 
receive a red, yellow, or green rating depending on their 
improvement and success. Yet agencies receive green ratings for 
human capital, despite the fact that the hiring process is 
failing.
    For example, Federal agencies still require applicants to 
answer knowledge, skills, and ability questions. Applicants are 
given 500 to 5,000 characters per answer to respond to many, 
often redundant, questions. According to the Merit Systems 
Protection Board report entitled ``Attracting the Next 
Generation: A Look at Federal Entry-Level New Hires,'' the two 
greatest obstacles new hires faced were the length and 
complexity of the process. In the private sector, employers 
only require a resume and cover letter. Applying to the Federal 
Government should be just as easy.
    The problem is not Congress. Since 2002, Congress has given 
agencies the flexibilities they need: Agencies no longer must 
rely on the rule of three; they can use category ratings; and 
they can get direct hire authority from OPM. However, in many 
cases Federal agencies are not using these authorities.
    The competitive process is not the problem. The notion that 
merit system principles and veterans' preference are barriers 
to hiring is wrong. These are good management practices. 
Agencies need to adapt, just as the private sector has, to the 
culture of the next generation of Federal workers. For example, 
agencies should use new media marketing tools to attract young 
people into Federal service. Candidate-friendly applications 
that welcome cover letters and resumes should be implemented. 
Candidates should receive timely and informative feedback. And 
more pipelines into colleges and technical schools need to be 
developed to recruit candidates with diverse backgrounds.
    The Federal Government is the largest employer in the 
United States. Federal service is a noble profession. This 
week--Public Service Recognition Week--we celebrate those men 
and women who make a commitment to serve their government in 
the military or civilian corps. In honoring these employees, we 
have an opportunity to recruit the next generation by 
highlighting inspiring Federal careers. Good people attract 
more good people. However, the positive impact of this week 
will not help agencies recruit if they continue to use outdated 
hiring practices.
    I look forward to hearing about the efforts being made by 
OPM to address this issue and recommendations from other 
witnesses to improve recruitment and hiring at Federal 
agencies.
    Now I would like to ask our Ranking Member for his 
statement. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. We really 
appreciate your calling today's hearing, ``From Candidates to 
Change Makers: Recruiting and Hiring the Next Generation of 
Federal Employees.'' That is a pretty good title.
    Holding this hearing during Public Service Recognition Week 
is appropriate given our need to thank the men and women who 
serve our Nation through their service as Federal employees.
    When we discuss hiring, we discuss a process that affects 
every individual employed by the government today. Making the 
right hiring decisions affects the current workforce's ability 
to continue doing their jobs. It also is the same process these 
employees must go through when pursuing new opportunities 
within the government, including promotions.
    Additionally, we need to convey to the thousands of men and 
women at all stages of their career that the Federal Government 
is more than just an employer, but a place where Americans can 
utilize and grow their skills in service to their Nation, 
making a difference to their Nation and their fellow man.
    As the old cliche goes, you never get a second chance to 
make a first appearance. You need to convey to those Americans 
that the Federal Government wants them. If we do not, someone 
else will.
    We know the challenges confronting the Federal Government. 
This Subcommittee has focused its attention on understanding 
and addressing those challenges for the past 9 years. We have 
discussed for years the human capital crisis that will ensue 
when the baby-boom generation begins retirement, and that has 
already begun.
    Mr. Chairman, that era is here. The baby boomers are 
retiring. At the same time, the needs and demands on government 
continue to grow. OPM itself has identified certain areas of 
critical hiring importance: Air traffic controllers, Border 
Patrol officers, engineers, food inspectors, human resources 
specialists, nurses, visa examiners, patent examiners, 
scientists, veterinarians, accountants, and acquisition 
professionals. In addition, the Partnership for Public Service 
has estimated that over the next 2 years, the government will 
need to hire 193,000 new people to fill mission-critical jobs 
in fields such as security, public health, accounting and 
budget, engineering and sciences, and program management.
    Over and over, we hear of the problems in the Federal 
hiring process: It takes too long, it is too burdensome, and so 
forth. The quality of technology has improved, but our 
processes have not. Just yesterday, Stephen Barr of the 
Washington Post hosted an online chat in which dozens of 
individuals wrote in expressing their frustrations with the 
process. I hear this at home constantly from people. They want 
to work for the Federal Government, but how do you get into the 
system?
    Mr. Chairman, the Federal Government has a real image 
problem if this is the message conveyed to the American people 
about what it actually takes to come to work for the Federal 
Government. And I would like to just show you an example. I 
found three job postings or human resource professionals.
    The first I found on the website for the Washington Post, 
and you can see clearly there are two pages, and it asks 
interested applicants to submit their resumes via e-mail. So it 
has got the basic, what the job is about, and asks them to 
submit their resume via e-mail.\1\
---------------------------------------------------------------------------
    \1\ The copies of applicants submitted by Senator Voinovich appears 
in the Appendix on page 126.
---------------------------------------------------------------------------
    The second is a position at Google, which was ranked by 
Fortune Magazine as the Best Place to Work. Again, the initial 
requirement of applicants is to submit a resume and cover 
letter.
    And, last, if there is an opening in the Federal 
Government, it asks for the same information, then proceeds to 
ask applicants to write narrative answers to eight additional 
questions.
    Mr. Chairman, if I were looking for a job, I would be happy 
to write my cover letters and e-mail my resume to those two 
companies that I first mentioned on the charts. I do not know 
that I would have the time or patience to sit down and write 
letters to eight different questions for my initial application 
for a position. It just does not make any sense.
    Certainly there is a place for this or similar assessment 
of applicants in the hiring process, but down the road, after 
you have been through the initial application, then you get 
into all this other stuff. But I am not convinced it is 
necessary to subject every applicant to this process. This does 
not say ``welcome'' to any prospective candidate. It does not 
say ``Uncle Sam Wants You.'' This does nothing to dispel any 
preconceived notions that the Federal Government is nothing but 
a bureaucratic system that who in the world would want to go to 
work for.
    Too often we have heard that processes exist for what I 
believe to be unacceptable reasons, such as ``That is the way 
it has always been done.'' But to be an employer of choice, the 
government must understand what the competition is doing and 
adapt to the changing environment. How can we expect employees 
to lead change if they are first shown the government's 
inability to respond to what job seekers deserve and expect?
    Mr. Chairman, I believe the current statute provides the 
Federal Government ample flexibility and opportunity for the 
human resources professionals to utilize a flexible and more 
dynamic hiring process if there was just the will and the 
desire to do things differently. And I just want to say this is 
very critical. We have been working, as Senator Akaka said, as 
a team for about 8 years to try and give more flexibility to 
the Federal Government so that we could recruit and retain and 
reward good people. The competition is very keen today. 
Everybody has a human capital crisis right across the board. 
And if the Federal Government is going to get the best and the 
brightest, we have got to adapt to what the competition is out 
there. And the competition makes it a lot easier to bring 
people on board, and that is what we need to do right now if we 
expect to provide the kind of services that the American people 
demand from us so that we have the right people with the right 
knowledge and skills at the right place at the right time.
    Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich. You 
can tell we are of the same mind. We have been working together 
on this, and I just want you to know we need your help to try 
to improve the system. That is what we are all about.
    And so I would like to introduce our first panel: Robert 
Goldenkoff, Director of Strategic Issues, GAO, Government 
Accountability Office; Angela Bailey, Deputy Associate 
Director, Talent and Capacity Policy Center of the Strategic 
Human Resource Policy Division, Office of Personnel Management; 
John Crum, Acting Director, Office of Policy and Evaluation, 
Merit Systems Protection Board; and James McDermott, Chief 
Human Capital Officer, Nuclear Regulatory Commission.
    As you know, our Subcommittee rules require that all 
witnesses be sworn in, and so I ask you to please stand and 
raise your right hand. Do you solemnly swear that the testimony 
you are about to give the Subcommittee is the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Mr. Goldenkoff. I do.
    Ms. Bailey. I do.
    Mr. Crum. I do.
    Mr. McDermott. I do.
    Senator Akaka. Thank you.
    Senator Voinovich. Mr. Chairman, could I just make one 
comment before the witnesses----
    Senator Akaka. Before you do, let me note for the record 
that our witnesses answered in the affirmative.
    Senator Voinovich.
    Senator Voinovich. I would like to say that I am glad that 
Mr. McDermott is here, and I would like to say, Mr. McDermott, 
that we worked very hard to provide flexibilities to the 
Nuclear Regulatory Commission because we anticipated some of 
the challenges that you would have. And I am glad that you are 
here today because I think you are going to portray what we 
could do in other agencies if we put our minds to it.
    Thank you, Mr. Chairman.
    Senator Akaka. Well, thank you, Senator Voinovich.
    Before we begin, I want to remind you that although your 
oral statement is limited to 5 minutes, your full written 
statements will be included in the record.
    Mr. Goldenkoff, will you please proceed with your 
statement?

   TESTIMONY OF ROBERT N. GOLDENKOFF,\1\ DIRECTOR, STRATEGIC 
         ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldenkoff. Thank you, Mr. Chairman and Senator 
Voinovich. I would like to thank you for the opportunity to be 
here today to discuss recruiting and hiring the next generation 
of Federal employees. I would like to commend the Subcommittee 
for timing this hearing to coincide with Public Service 
Recognition Week, which honors the employees at all levels of 
government who proudly serve our Nation and make life better 
for all of us.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Goldenkoff appears in the 
Appendix on page 39.
---------------------------------------------------------------------------
    Earlier this week, I visited the exhibits that Federal 
agencies have set up on The Mall to celebrate the contributions 
of their employees, and the importance of hiring a top-notch 
Civil Service employee was abundantly clear. From health care 
to homeland defense, Federal agencies are on the front lines of 
issues that have profound implications for our future economic 
growth, our standard of living, and our national security. The 
public has come to expect and needs a high-performing and 
responsive Federal workforce. However, as you know, the 
government is facing a looming retirement wave which could 
leave agencies with critical leadership and skill gaps. 
Restoring this talent could be a challenge as the Federal 
hiring process is cumbersome and often falls short of the needs 
of agencies and applicants, as we have just discussed.
    As requested, my testimony today will focus first on the 
challenges Federal agencies have faced in recruiting and hiring 
talented employees; second, the progress that has been made to 
date in addressing these challenges; and, third, additional 
actions that are needed to further strengthen the government's 
recruiting and hiring efforts.
    Importantly, in my remarks this morning, I want to stress 
the following: Although a number of challenges still need to be 
addressed, in many ways the Federal Government is well 
positioned to hire the people it needs to carry out its diverse 
roles and responsibilities. Federal employment offers 
intangible rewards such as interesting work and opportunities 
to make a difference in the lives of others, as well as a 
variety of tangible benefits and work-life flexibilities that 
many job seekers look for in an employer.
    Turning first to recruiting and hiring challenges facing 
Federal agencies, as you know, studies by us and others have 
pointed to such problems as passive recruitment strategies, 
unclear job vacancy announcements, and imprecise candidate 
assessment tools. These problems put the Federal Government at 
a competitive disadvantage when acquiring talent. The good 
news, however, is that in recent years, Congress, OPM, and 
agencies have taken a number of steps to improve the employment 
process. For example, as we have already mentioned, Congress 
has provided agencies with hiring flexibilities that could help 
agencies streamline their hiring processes and give agencies 
more latitude in selecting from among qualified job candidates. 
And for its part, OPM has, among other actions, sponsored job 
fairs across the country and has placed various tools on its 
website to help agencies improve and refine their hiring 
procedures.
    Likewise, individual agencies have taken steps to meet 
their specific recruiting and hiring needs. For example, NASA 
has recruited workers with critical skills through a 
combination of techniques that have included improved 
compensation and benefits packages. While these actions are all 
positive trends, our past work has found that additional 
efforts are needed in four key areas: Strategic human capital 
planning, diversity management, existing flexibilities, and 
OPM's leadership.
    First and foremost, Federal agencies will have to bolster 
their efforts in strategic human capital planning to ensure 
they have employees with the skills and competencies necessary 
to achieve their current goals as well as their future mission.
    With respect to diversity management, to ensure that 
agencies are reaching out to diverse pools of talent, agencies 
must consider active recruitment strategies, such as widening 
the selection of schools from which they recruit. This can 
include, for example, more aggressive outreach to historically 
black colleges and universities, Hispanic-serving institutions, 
and women's college.
    A third area for improvement is the appropriate use of 
human capital flexibilities. Although agencies have various 
flexibilities at their disposal to help them recruit and retain 
talent, agencies do not always make effective use of them.
    A fourth area in need of greater attention is OPM 
leadership. OPM must continue to assist--and, as appropriate, 
require building of infrastructures within agencies needed to 
implement and sustain human capital reforms.
    In summary, OPM and agencies have made progress in 
addressing many of the impediments to effective recruitment and 
hiring, but still, as I have discussed today, more can and must 
be done. With sustained and committed leadership, innovation, 
and planning on the part of Congress, OPM, and agencies, the 
Federal Government can brand itself as an employer of choice 
and successfully compete in the labor market for its fair share 
of the Nation's best and brightest individuals.
    Mr. Chairman and Senator Voinovich, this concludes my 
prepared statement, and I would be happy to respond to any 
questions you may have.
    Senator Akaka. Thank you very much, Mr. Goldenkoff.
    Ms. Bailey, please proceed with your statement.

 TESTIMONY OF ANGELA BAILEY,\1\ DEPUTY ASSOCIATE DIRECTOR FOR 
TALENT AND CAPACITY POLICY, U.S. OFFICE OF PERSONNEL MANAGEMENT

    Ms. Bailey. Thank you. Good morning, Chairman Akaka, 
Senator Voinovich, and Members of the Subcommittee. Thank you 
for this opportunity to highlight, during Public Service 
Recognition Week, the Office of Personnel Management's (OPM) 
mission to ensure the Federal Government has an effective 
civilian workforce--a workforce that draws on the strength of 
America's rich diversity of talent. In pursuing our mission, 
OPM must balance the needs of our agencies and job applicants 
with merit system principles and veterans' preference. We also 
are mindful of the responsibilities assigned to OPM under the 
President's Management Agenda concerning strategic management 
of human capital, and we are very appreciative of all of the 
work done by this Subcommittee over the last several years to 
provide needed flexibilities that are helping to improve 
Federal recruitment efforts and the overall Federal hiring 
process.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Bailey appears in the Appendix on 
page 54.
---------------------------------------------------------------------------
    As the President's human resources advisor, OPM Director 
Linda Springer fully understands the importance of recruiting 
and employing the next generation of Federal workers.
    OPM has expanded our efforts to reach out across the 
country to encourage Americans to join Federal service. We have 
used television ads to promote public service; we are 
highlighting our compensation and benefits packages; and we are 
promoting our telework and family-friendly policies, which are 
geared to the preferences and expectations of today's job 
seeker.
    To help agencies better address their hiring needs at both 
ends of the employment spectrum, OPM developed a legislative 
proposal that would allow agencies--without coming to OPM for 
approval--to rehire annuitants on a part-time and/or time-
limited basis under certain conditions, without a salary 
offset. These experienced workers, with their institutional 
knowledge, can help the next generation of employees integrate 
into an agency's workforce by serving as mentors and knowledge 
management facilitators, thus providing a seamless transition 
from generation to generation.
    OPM would particularly like to thank Senators Collins, 
Warner, and you, sir, Senator Voinovich, for their introduction 
of this proposal as S. 2003. We also appreciate the support for 
this proposal from the President of the Partnership for Public 
Service who is testifying on the next panel.
    In addition to the above, I would like to address three 
specific areas in which OPM is leading the way to improve the 
recruitment and employment of the next generation of Federal 
employees: The hiring process, job announcements for entry-
level positions, and selection methods for the Senior Executive 
Service.
    We are well aware that the Federal hiring system has 
evolved over many years into a cumbersome process and hiring 
takes far too long. There are few of us who do not have a story 
to tell that illustrates frustration with the Federal hiring 
process, whether it is our own, a friend's, or a neighbor's.
    Under the leadership of Deputy Director Howard Weizmann, we 
have expanded these efforts by partnering with several agency 
Chief Human Capital Officers to launch a new, holistic, and 
systemic view of the hiring process. In the past, we took a 
much narrower view of the process and tried to ``fix'' 
individual pieces rather than look at all of the components and 
their interrelatedness. By July we will have the results of our 
pilot efforts and will publish in September a government-wide 
standard for the hiring process, along with a ``how to'' guide 
that includes successful practices such as those mentioned by 
the Nuclear Regulatory Commission, for the hiring process along 
with successful templates, which I will discuss later, and 
scripts for communicating with applicants.
    As a subset of this initiative, we also are streamlining 
our job announcements and creating templates that agencies may 
use when advertising for entry-level positions. OPM is working 
with the Federal Acquisition Institute to design a job 
announcement for the acquisition community and has managed to 
streamline that announcement by reducing the verbiage by 75 
percent. It also advertises up front two of the most important 
issues of concern to new professionals: Pay and benefits.
    Moving to our executive corps, in concert with several 
agencies, OPM will pilot two separate methods for executive 
selection starting this June. One alternative in the pilot will 
be a more streamlined selection method that focuses on an 
individual's accomplishments as identified through the current 
executive competencies. The other alternative in the pilot will 
allow candidates to apply for Senior Executive Service (SES) 
positions by providing only their resume. This method is 
specifically designed to attract seasoned executives whose 
resumes clearly demonstrate the extent of their experience and 
accomplishments.
    If anything, OPM believes that these efforts will prove 
that it is possible to challenge difficult and esoteric 
processes and, more importantly, create solutions that do not 
compromise our principles. Public service is a noble calling, 
and we look forward to working with you to inspire a new 
generation to join public service.
    Mr. Chairman, this concludes my statement, and I would be 
pleased to answer any questions you and other Members may have.
    Senator Akaka. Thank you very much, Ms. Bailey.
    Dr. Crum, will you proceed with your statement?

 TESTIMONY OF JOHN CRUM, PH.D.,\1\ ACTING DIRECTOR, OFFICE OF 
   POLICY AND EVALUATION, U.S. MERIT SYSTEMS PROTECTION BOARD

    Mr. Crum. Good morning, Chairman Akaka and Senator 
Voinovich. Thank you for the opportunity today to testify 
regarding the challenges to recruiting and hiring applicants 
for Federal jobs.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Crum appears in the Appendix on 
page 58.
---------------------------------------------------------------------------
    The U.S. Merit Systems Protection Board (MSPB) conducts 
independent studies of the Federal Civil Service system to 
determine if the workforce is managed under the merit system 
principles and free from prohibited personnel practices. We 
have identified a set of key challenges the government faces in 
recruiting and selecting the next generation of Federal 
employees, which I will discuss. I will also discuss efforts 
undertaken by the Office of Personnel Management and several 
other Federal agencies to address these challenges.
    Our studies have shown that there are four primary barriers 
that often prevent qualified applicants from seeking employment 
with the Federal Government. These include: The length of the 
process, the complexity of the process, the use of ineffective 
candidate assessment tools, and an absence of an effective 
marketing strategy.
    First, with respect to the hiring process, research 
conducted by the MSPB has shown that it is not uncommon for 
successful applicants to wait 5 months or more to receive job 
offers. Of course, the longer the process takes, the more 
applicant attrition is likely to occur.
    A second barrier is the complexity of the process. 
Decentralization of the hiring process has added to the 
complexity because there is no standard application and there 
are no uniform assessment processes. Applicants must submit 
different applications and other required forms to each agency 
with which they seek employment.
    A third issue of concern regarding the Federal Government's 
ability to hire a high-quality workforce is how Federal 
employers assess the relative qualifications of job applicants. 
The assessment tools many agencies use are simply not effective 
predictors of success on the job.
    Finally, the Federal Government often fails to market 
itself effectively as an employer of choice. MSPB's research 
shows that Federal vacancy announcements are often poorly 
written, difficult to understand, and filled with jargon and 
unnecessary information. Consequently, many announcements 
actually discourage potential applicants from applying for 
Federal jobs.
    The Office of Personnel Management has attempted to address 
these challenges in a variety of ways. OPM has worked with 
agencies to improve the timeliness of the process. OPM has also 
instituted new hiring flexibilities, such as category rating, 
and developed new hiring authorities, including the Federal 
Career Intern Program, and authorized direct hiring authority 
as needed by agencies. OPM has also instituted a 45-day hiring 
model and is working with agencies to achieve this goal.
    OPM has also worked to improve Federal vacancy 
announcements. This has included working with agencies to 
develop a job announcement template for use in conjunction with 
the USAJOBS website that is more streamlined and user friendly. 
OPM has also been working on the development of standard job 
announcements for a set of occupations that cut across 
agencies. Finally, OPM is working with the Chief Human Capital 
Officer Council to identify additional hiring reforms that will 
speed the process and protect merit.
    A number of other Federal agencies have demonstrated that 
it is possible for the government to effectively compete for 
talent. Our 2004 report, ``Managing Federal Recruitment: 
Issues, Insights, and Illustrations,'' cited a number of 
interesting practices that improved agencies' ability to 
recruit and hire qualified candidates. For example, a former 
Director of the Defense Finance and Accounting Service led 
recruitment events at his alma mater. These efforts conveyed 
his commitment to effective recruitment and made a positive 
impression on candidates. Another agency, the Government 
Accountability Office, assigns senior executives and a 
recruiting team to targeted colleges and universities. The 
Social Security Administration built an agency-wide marketing 
campaign around a single tag line and targets marketing 
materials to specific needs and audiences. These organizations 
have made recruitment an organizational priority, allocated the 
resources necessary for it, and employed proactive and creative 
approaches in their recruitment strategies.
    Similarly, at the MSPB we have attempted to streamline and 
improve our own hiring practices. This included revising our 
vacancy announcements, implementing category rating, and using 
a multiple hurdle assessment approach that did away with 
lengthy knowledge, skills, and ability write-ups.
    MSPB offers the following recommendations to guide reform 
and improve the Federal hiring process:
    First, agencies should manage hiring as a critical business 
process, not an administrative function that is relegated to 
the human resources staff. This means integrating discussions 
of hiring needs, methods, and outcomes into the agency's 
business planning processes.
    Second, agencies should evaluate their own internal hiring 
practices to identify barriers to high-quality, timely, and 
cost-effective hiring decisions. Agencies will probably be 
surprised to see that many of the barriers they face are self-
imposed.
    Third, we recommend that agencies, with the assistance of 
OPM, employ rigorous assessment strategies that emphasize 
selection quality, not just cost and speed. In particular, 
agencies should use assessment instruments that have a 
relatively good ability to predict future performance.
    Finally, we recommended that agencies implement sound 
marketing practices and better recruitment strategies, improve 
their vacancy announcements, and communicate more effectively 
with applicants. These reforms may well encourage applicants to 
await a final decision rather than abandon the Federal job 
search in favor of employment elsewhere.
    This concludes my statement today, and again, I thank you, 
Mr. Chairman, for the opportunity to appear this morning, and I 
am happy to respond to questions from you or Senator Voinovich.
    Senator Akaka. Thank you very much, Dr. Crum.
    Now we proceed to Mr. McDermott for your statement.

 TESTIMONY OF JAMES F. McDERMOTT,\1\ DIRECTOR, OFFICE OF HUMAN 
            RESOURCES, NUCLEAR REGULATORY COMMISSION

    Mr. McDermott. Thank you, Mr. Chairman and Senator 
Voinovich. I am glad to be here to talk about NRC's hiring 
practices.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McDermott appears in the Appendix 
on page 71.
---------------------------------------------------------------------------
    In the fall of 2005, Chairman Nils Diaz and I met with 
Senator Voinovich to talk about our plans to increase the 
agency's size to handle the new work coming our way. And 
Senator Voinovich asked me could I hire 350 people in that 
year. Well, historically NRC was hiring about 220 people per 
year, so to the mild displeasure of Chairman Diaz, I said, 
``Three hundred? Probably. Three hundred and fifty would be a 
stretch.'' But in the end, we hired 371 people in that fiscal 
year for a net gain of 175 in the staff.
    The next year, we hired 441 people and gained a net of 216, 
and this year, we are on the way to more than 400 hires and 
will hit our target of 200 net gain this year. Forty-five 
people will start at NRC next Monday.
    I think there are four key factors that have made our 
hiring program successful. The first is the mission. Protecting 
the public and the environment is a challenge that attracks a 
broad range of individuals. Its mission resonates with the 
young and with the not so young. About half the people we hired 
in fiscal year 2007 were over the age of 40.
    What we have done is improve the way we highlight the value 
of the mission and the value of a career at NRC. We spend a lot 
of money to upgrade our ads, our displays, and our videos to 
try and tell a compelling story about a consistent message: 
Make our mission yours.
    The second big key to our success is management commitment 
and support. Chairman Klein introduces himself as my chief 
recruiter, claims he works for me. He does. He is constantly 
setting off my BlackBerry with buzzes about ``I found this 
resume,'' ``Talk to this person,'' things like that. The other 
Commissioners participate, and it carries right down through 
the staff. We have managers who are passionate about recruiting 
people. They get involved at the recruitment events. They 
follow up afterwards with candidates and prospects. And they 
push the mechanisms in the agency to get the job offer out. 
They say, ``Hey, where is the offer to this young person I 
talked to at the campus?'' This commitment is not lost on the 
candidates, who recognize that investing in people is a real 
top priority at the NRC.
    My third factor in NRC's recruitment strategy is maximum 
use of the hiring flexibilities. We routinely offer recruitment 
bonuses, flexible work schedules, AND teleworking 
opportunities. And for mid- and late-career candidates, the 
Federal Health Benefits Program, which includes guaranteed 
health benefits coverage in retirement, is an absolutely huge 
attractor.
    The Energy Policy Act--thank you very much--of 2005 gave us 
some particularly useful tools. We can cover housing and 
transportation expenses for cooperative education students 
during their work periods at NRC. This has made it economically 
feasible for students from outside the metropolitan area to 
come and work at NRC during work periods or during the summers. 
The act also provided us the authority to waive the pension-
salary offset when you are hiring retirees either to meet 
sudden critical skill needs or for short-term knowledge 
transfer efforts to mitigate the loss of critical skills 
through retirement.
    The fourth key that we use is our reputation as a great 
place to work. We highlight our rankings in the surveys and 
being cited as a best diversity company, and one result of this 
employee-friendly culture is we have about 3,000 recruiters in 
the agency. They talk to their colleagues and former associates 
about what a good place NRC is to work, and that word of mouth 
is a top source of good, quality candidates. Personally, I got 
both of the jobs I got in the Federal Government by word of 
mouth, not by the vacancy announcement process.
    But, obviously, our program is still a work in progress. We 
are working hard with OPM to improve the end-to-end hiring 
process. We have completed one and we are engaged in two other 
Lean Six Sigma reviews to identify ways to improve our cycle 
times, and we have established targets, and we have got them in 
our operating plans. And we are working with OPM and others to 
try and share this stuff with the government at large so the 
government becomes an employer of choice.
    Thank you very much for the opportunity to talk to you. I 
would be happy to answer any questions.
    Senator Akaka. Thank you very much, Mr. McDermott.
    Let me read to you, the panel, what a few people wrote this 
week on the Washington Post Federal Diary online discussion in 
response to articles on the Federal hiring process.
    One person said, ``The biggest problem with Federal hiring 
is that it is too slow. There are many who would make great 
public servants who do not even apply because the government 
has that reputation.''
    Another person said, ``I decided not to apply for other 
Federal jobs. Not worth the effort.''
    Yet another said, ``For private sector jobs, you send a 
resume, references, and a cover letter. For government jobs, 
you fill out endless forms, and if you miss one, you are out.''
    You all represent agencies with recruitment and hiring 
programs. Do you think applicants say the same about your 
agency, what I just mentioned? What do you think we can do 
about this? That is the question.
    Let me begin with Mr. Goldenkoff.
    Mr. Goldenkoff. Well, I think as we have discussed, the 
hiring process definitely needs to be streamlined. It is too 
paper-based, it is very cumbersome. When I think of all the 
thousands and thousands of applicants who apply for Federal 
employment each year, one person comes to mind, and that is my 
daughter and what would attract her to the Federal Government. 
And basically there are so many other opportunities out there 
in the private sector, and I think that she would be turned 
off, and I know she is already turned off, by just the thought 
of this daunting process as we saw earlier with those displays. 
So that is one thing, simplifying the process.
    Another factor that agencies would need to consider is 
being much more aggressive on college campuses and elsewhere in 
their recruiting. The Government Accountability Office, for 
example, goes out and establishes long-term relationships with 
colleges and universities. There is a lead recruiting team for 
each of about 27 national schools and about 15 target 
universities that we have included because they have high 
concentrations of minority students. Each team is led by a 
senior executive, and they are expected to go out there and 
establish relationships with the students, with the faculty, 
and the administrators.
    The point to all this is that we just do not go out to the 
schools when we have something to sell, when we need people. We 
go out there, we teach classes, we serve on panels, and that is 
very effective. What it does is it brands your organization as 
a good place to work.
    So those are two approaches right there: Simplifying the 
process and more aggressive outreach.
    Senator Akaka. Thank you, Mr. Goldenkoff. Ms. Bailey.
    Ms. Bailey. Thank you, Mr. Chairman. To add to what the 
gentleman had mentioned, I also believe that one of the things 
that we can do that I had mentioned in my testimony is the idea 
of streamlining the job announcements themselves. As you 
demonstrated, where you had eight pages for a job announcement, 
it is very possible to take those down to where it is at least 
three to four pages of things that are very direct, hit up 
front on those key issues that are important to prospective 
employees--for example, pay--and do not talk to it in terms of 
GS-5, GS-7, because no one has a clue what that means. So we 
need to go after and we need to be very clear on what the 
salary is exactly that an employee can expect.
    With regard to our benefits, we have a wealth of benefits. 
We need to advertise those because what I think most of the 
studies that GAO and MSPB have shown is that it is not always 
about the pay. A lot of times what people are actually looking 
for has to do with our flexible work schedules, our 
teleworking, our ability to work in different locations, 
whether it is Guam for the United States Navy or it is with the 
NRC here in the Washington, DC area.
    So there is a wide range of things that we can do to 
actually get up front, market who we are, be very specific 
about that, and then talk in much more plain language with 
regard to what it is that we are looking for, whether it is 
knowledge, skills, and abilities.
    We kind of beat ourselves up occasionally over the idea of 
assessing employees. Should we do it up front or should we do 
it in a more hurdled approach? I think that both of them have 
merit, and we could probably argue those points on both sides. 
But whichever method that we choose, we have to be very 
cognizant of the fact that the very baseline of our merit 
system principles is that our selections will be based solely 
on the ability, the skills, and the knowledge of individuals 
when we make those kinds of selections.
    We have to be very clear in our ability to balance both the 
assessment of those individuals without making it look like it 
is such an arduous process.
    Senator Akaka. Thank you. Dr. Crum.
    Mr. Crum. Yes, I would say the first thing we need to do is 
have agencies look more closely at themselves and what they are 
doing. Oftentimes, I think that they have developed processes 
that they continue to use because they have always done it that 
way, instead of reviewing what they are doing to see whether 
they can be done better.
    In many agencies that we have looked at, management is not 
taking its recruiting and selection as seriously as they 
should. They get people, but do they get the best people? They 
do not really know. Their processes are, again, 
institutionalized and oftentimes turned over to human resources 
staffs without sufficient involvement with management.
    Our view is that management--this is a key objective of 
management--is to create a workforce for both today and for 
tomorrow, not just look at who we can get in at the moment but, 
in fact, build that workforce of the future. So I think 
agencies have to, in fact, review their processes and see 
whether there are ways in which they can do it better. I think 
that there are.
    I think another issue is one of applying for jobs across 
agencies. Right now every time a person submits an application 
for a job in one agency, that application is not usually 
transferable to another job in a different agency. They will 
have to resubmit a new application, fill out new KSAs, in fact, 
be involved in a very long process that is frequently off-
putting. So I think that having a facility to submit at least a 
basic application for common jobs across agencies would be a 
big help.
    Additionally, as Ms. Bailey mentions, I think we could do a 
better job of marketing ourselves. We do have an awful lot to 
offer. Right now we have very passive recruitment strategies. 
We either rely on people who are in the agencies to tell us 
about what they do or tell their friends about what they do, or 
we rely on USAJOBS. We have so much to offer that if we could 
reach people with the fact that we have a chance to make a 
difference in people's lives, that we have interesting 
missions, that we have benefits, I think we could, in fact, 
entice many more people to apply for Federal jobs.
    Senator Akaka. Thank you. Mr. McDermott.
    Mr. McDermott. Well, I would say that in regard to a lot of 
the processes, our best boast is we are no worse than anybody 
else. But what we trade on is getting the managers involved. 
Take the University of Puerto Rico at Mayaguez. We send a big 
team--we blitz them. We have done that every year since 2000, 
and we take eight or nine people down there, half of them 
senior executives who really model what a career with NRC could 
be. It pays off. And then I tell them, ``You are here to sell 
on Friday and screen on Saturday.''
    So we market--actually, we get in about Wednesday. We talk 
to them, we get them all lined up, we get the best and 
brightest. Then we screen them. We sit in a room. I am sitting 
at a typewriter in the room, and if I get a nod from the 
interviewer, I am writing an offer letter. And we say, 
``Here.'' And we do not talk about Grade 5 or 7. We say, ``This 
is a good life. Come to work for us and in 3 or 4 years you 
will be making $80,000 a year.'' That is an offer letter that 
Mom and Dad are real happy to see when they take it home.
    These things work for us, and we think that if we sell and 
then if we are smart and get the right people doing the 
screening, we can do things a lot faster.
    Senator Akaka. Thank you very much, Mr. McDermott.
    What I will do is ask my Ranking Member for his questions, 
and I will come back to a second round. Senator Voinovich.
    Senator Voinovich. Thank you. Mr. McDermott, I am tickled 
that those flexibilities we enacted in the 2005 Policy Act 
really have made a difference for the NRC. I was just telling 
one of the young ladies behind me, I said, ``Doesn't that 
really make you feel good?'' [Laughter.]
    Mr. McDermott. It makes me feel good.
    Senator Voinovich. Ms. Bailey, you have been with OPM for 
how long?
    Ms. Bailey. Six months, sir.
    Senator Voinovich. Is this the first time you have 
testified?
    Ms. Bailey. Yes, it is, Senator.
    Senator Voinovich. Well, you are probably pretty nervous, I 
suspect. You did a good job with your opening statement, by the 
way.
    Ms. Bailey. Thank you.
    Senator Voinovich. And I have to say that at the end of 
your testimony, the suggestions that you are making to effect 
change seem to be very good. The real issue is whether or not 
you can actually get them done.
    Why has it taken so long for OPM to address this issue?
    Ms. Bailey. Senator, we have been trying to fix the hiring 
process for the last 10 to 15 years. I think that a lot of very 
good initiatives have been done over the years. The 45-day 
model is a good start at that. Using the scorecard method with 
the agencies and drawing attention to their human capital 
practices is another good area that we have started.
    Under Deputy Director Weizmann, one of the things that when 
he first came on board that we talked about is the fact that 
what we need to look at, though, is we need to look at the 
hiring process as an end-to-end thing.
    Senator Voinovich. When did Deputy Director Howard Weizmann 
start his work?
    Ms. Bailey. In July 2007.
    Senator Voinovich. OK.
    Ms. Bailey. When I then came on board, we sat down and we 
had a discussion about it because the issue that was very 
important to him was this charge that we needed to fix the 
hiring process. And from my years of experience in the 
operating world out in the field, not at the policy 
headquarters level, there are a lot of things that you can see 
when you are out in the operating area that you can see the 
policy drives much of what we do within the operations area.
    The discussion centered around the fact that what we had to 
look at the hiring process we had to look at the root causes of 
what was causing some of these issues and go after those root 
causes. Because it is not always about a new hiring authority 
or a new automated tool. Sometimes it goes back to basic 
staffing and recruiting. Sometimes it goes back to having basic 
commitment from top senior leadership that they are actually 
going to see themselves as the agency's recruiter, and it is 
not simply something that is thrown over the shelf to a GS-7 HR 
specialist.
    So in looking at that, we said it starts with workforce 
planning. Quite frankly, if the agencies--and we are at an 
agency as well.
    Senator Voinovich. I hate to interrupt you, but----
    Ms. Bailey. Yes, sir.
    Senator Voinovich [continuing]. The first thing you ought 
to do is get back to us on your plan. One of the things that is 
a concern to me right now, Senator Akaka, is we are getting 
toward the end of the current Administration.
    Ms. Bailey. OK.
    Senator Voinovich. It takes a while to get things done. I 
know that. The first thing I would do is straighten out OPM's 
internal application process. OPM ought to be able to do that 
in a very short period of time. There are some good models 
being discussed here. I would encourage you to look at the 
forms they are using, and come up with a new form for OPM. OPM 
is supposed to be the lead personnel management agency, and its 
application stinks. So OPM ought to straighten that one out in 
the beginning, and hopefully in the process of doing that the 
agency could share that reform with some of the other agencies 
that have the same type of challenges. There are some good role 
models here. You do not have to hire a consultant. Go talk to 
Mr. McDermott. Talk to Mr. Crum. Go over to the General 
Accountability Office and get them in a room. Get a hold of 
your CHCO Council people. Have they been bothering with this or 
talking about it at all?
    Ms. Bailey. Absolutely, yes.
    Senator Voinovich. What have they done?
    Ms. Bailey. The Chief Human Capital Officers are 
intricately involved in the entire hiring process, and they 
also are working with us on the streamlining of the templates. 
We deliberately chose to go after working with the Chief 
Financial Officer Council to address the accountant and 
accounting technician, and our next initiative that we are 
working on right now is with the Federal Acquisition Institute 
to go after the acquisition community, because what there is is 
a need for us to work within the communities of interest, not 
just within the HR communities. So in collaboration with the 
Chief Human Capital Officers and the communities such as 
acquisition, we are able to take this and put forth one face to 
the applicants to be America's buyer as the acquisition 
community sees themselves.
    So there is a tremendous effort going on right now to 
collaborate together with the different communities, to pull 
together and create one face to these applicants.
    Senator Voinovich. When?
    Ms. Bailey. We are doing that right now, and actually we 
have the template finished. It is in the clearance process. We 
plan to have that implemented by July 1. We also are going to 
work with the acquisition community to create a centralized 
register to address, as Dr. Crum has said, this idea of every 
time you apply for a job, you have to apply for it under a 
different method. So, by July 1, we are going to roll out with 
the acquisition community the idea of a centralized register. 
You apply for one job. You get to pick the location. You can 
pick the agencies that you are interested in. And then we will 
issue those registers.
    The other thing that we are looking at is this whole idea 
of assessment. We also are going to work with the acquisition 
community to create a streamlined assessment that directly goes 
after the competencies that the acquisition community is 
interested in rather than a one-size-fits-all approach so that 
we can eliminate this need for agencies to think that you have 
to do both an assessment exam and then turn around and address 
what we call the KSAs.
    We are collaborating with both the human resources 
professionals and with those communities to say this is your 
field, this is your expertise. Work with us so that we can come 
up with exactly what it is that you want to do to assess and be 
able to predict the successful outcome of that applicant.
    Senator Voinovich. Are you a Civil Service employee?
    Ms. Bailey. Yes, I am.
    Senator Voinovich. That means that you will be around to 
continue to push to reform this process.
    Ms. Bailey. Yes, I am leading this project that I am 
referring to.
    Senator Voinovich. Have you been working with Mr. Stier, 
President, Partnership for Public Service, who is going to 
testify on the next panel?
    Ms. Bailey. Yes, actually, we are working with him. We also 
are working with the Corporate Leadership Council. We are 
working with MSPB. So we are working with a host of people, and 
to be honest, we are also working with ordinary citizens, I 
mean literally going out and asking them, showing them these 
job announcements that are egregious and saying to them, 
``Would you apply for this job?'' The answer is, ``No.'' ``All 
right. Let's talk about what it is that we can do to write this 
in plain language.'' Because when an HR specialist looks at it, 
what looks like plain language to me is not plain language to a 
21-year-old junior in college.
    And so by working with private citizens and pulling 
together all the different information that we have, we are 
able to, I think, come up with something that is----
    Senator Voinovich. Mr. Chairman, I would like to have a 
written strategic plan on what OPM is going to do in order to 
meet the goal that Ms. Bailey has talked about today----
    Ms. Bailey. OK.
    Senator Voinovich. Within that plan, I would like to know 
what are the things that OPM is going to do in order to achieve 
success and some idea of timing so that Senator Akaka and I can 
sit down and look at the total picture. Maybe you can come in 
to see us or talk with our staff. I would like to monitor what 
OPM is doing so that it actually gets done what it claims to 
want to accomplish and also identify any impediments where 
maybe we can provide some kind of blocking in order to make it 
happen.
    Ms. Bailey. OK.
    Senator Voinovich. I have to tell you there is an urgency 
here. This has got to get done. OPM's plan cannot just meander 
down the stream until next year and hope something is going to 
get done. We have to get on this right away.
    Ms. Bailey. I agree, Senator Voinovich. We will do that.
    Senator Voinovich. Thank you.
    Senator Akaka. Thank you, Senator Voinovich.
    He is correct. We are going to be pushing this, and we look 
forward to your help in bringing this about.
    Let me ask this of Ms. Bailey and of Mr. McDermott. Most 
private employers only require applicants to submit a resume 
and cover letter to apply for a position, yet Federal agencies 
still use the complicated KSAs--knowledge, skills, and 
abilities--questionnaire to evaluate candidates. Why aren't 
Federal agencies using resumes and cover letters to evaluate 
candidates? Ms. Bailey.
    Ms. Bailey. Mr. Chairman, if I may, I just would like to 
read very quickly from the merit system principles because I 
think it sets the stage and puts some of this into context for 
all of us.
    ``Recruitment should be from qualified individuals from 
appropriate sources in an endeavor to achieve a workforce from 
all segments of society, and selection and advancement should 
be determined solely on the basis of relative ability, 
knowledge, and skills after fair and open competition, which 
assures that all receive equal opportunity.''
    I think what we have done over the years is we have kind of 
misinterpreted that perhaps a bit to say that somehow there is 
a requirement then for potential employees to have to literally 
address every single knowledge, skills, and abilities that we 
are looking for.
    The new approach that we are taking with these templates 
and with what we are working with the Chief Human Capital 
Officers on is we have a requirement to list the knowledge that 
we are looking for and the skills that we are looking for and 
the ability. I mean, even the Washington Post position that was 
demonstrated by Senator Voinovich's staff, even in there they 
address the qualifications, what they are looking for: That an 
individual would possess oral and written communication skills, 
for example.
    So we cannot lose sight of the fact that we have an 
obligation to tell people what we are looking for, what exactly 
we are looking for, but we do not have a requirement to then 
make them write everything--write it out in pages and pages of 
dialogue. There are many methods for assessing employees and 
assessing whether or not they have those knowledge, skills, and 
abilities, and a resume is one way of doing so.
    At the agency I worked at before with the Department of 
Defense, we did away with this idea of KSAs 7 years ago, and we 
use resumes only. It was an automated system. It came in and it 
did a word search. And there are some pitfalls with that, too, 
in that if you do not do your resume well and sometimes with 
the younger generation or even any generation, they struggle 
with how to do a good resume.
    I think that seasoned executives have that down pat, but a 
college student sometimes struggles with what exactly he needs 
to put on a resume.
    So as a result of that, what we found is that we needed to 
balance this idea of using expediency--a resume only--with the 
idea that at some point in time we also have to have the 
ability to assess whether or not in particular a GS-15 at a 
leadership position, do they really have the knowledge that we 
are looking for, or the skills or the abilities, to lead 
someone. So we went back and we reinstituted having them 
address four or five basic questions in that regard. That, 
coupled with structured interviews or having other interview 
panels that were diverse, actually led us to having better 
selections of our leadership positions.
    The notion that there should be no reason for us to assess 
employees concerns me just a little bit in that there has to 
again be a balance between being able to provide up front to 
employees exactly what it is that you are looking for, and then 
being able on the tail end to assess whether or not those 
individuals had that.
    The military has one of the most advanced and sophisticated 
assessment processes in the world. It is 225 questions with 
eight different sections. It takes hours to complete. In doing 
research on this whole idea of templates and how best to 
assess, I went in and I applied at Panera Bread, so if this 
does not work out, I will maybe be doing that. [Laughter.]
    But, anyhow, I went into Panera Bread, and I applied for 
that, and believe it or not, you do an application up front, 
which, yes, even asked for my Social Security number and 
everything else. It was a five-page application, and it ended 
with a 212-question questionnaire for me to fill out in order 
to work at Panera Bread to see if I was a right fit for them.
    And so sometimes what concerns me, Mr. Chairman, is that in 
our quest to simplify all of this, if we want to do assessments 
that are important enough for the military and for some of the 
private sector, I want to make sure that those that are coming 
in to serve the public, which is what we do as Federal 
employees, that we have some method of also assessing them in 
such a way as to ensure that they, too, are a right fit within 
the Federal Government.
    Senator Akaka. Thank you. Mr. McDermott.
    Mr. McDermott. Well, part of the problem is we have been 
seduced by technology. We thought the computer will make the 
judgments that need to be made to make sure we hire the right 
person. That is not true. That is not going to happen.
    The other thing we do is we write everything for the trial. 
It is very defensive. We practically require a legal brief from 
the applicant to prove that they are going to be the best 
qualified. We have got to not do that.
    Our newest Commissioner, Kristine Svinicki, asked me, she 
said, ``I need a staff. How are you going to get me staff?'' I 
said, ``I am going to ask them for a one-page resume and a 
cover letter that says, `Dear Commissioner: Here is what I 
could do for you.''' Stop. She said, ``That ought to work.'' 
And I said to myself that should work for every job that we are 
filling. We need to simplify this stuff.
    And at the NRC, I am working to make this change. There are 
a lot of things we do to make selections that we should have 
done in the assessment phase, not at the selection phase. Let's 
talk to people. That is really how you find out. There are two 
things I say: Talk to them and figure out whether they are good 
or not, and then use the probationary period when you are 
hiring a new employee, because you are not really going to know 
until you put them to work and see how well they work. So use 
it. And if they are good, they are good. Great. If they are 
not, bye-bye. That is how we should proceed in my view.
    Senator Akaka. Thank you. Now this question is for the 
panel. OPM has said that 85 percent of Federal agencies have 
met the 45-day model for hiring new employees. However, 
according to a recent MSPB report, applicants still complain 
about the lengthy process it takes to get hired.
    How long does it really take to hire a Federal employee 
from the date a vacancy is announced, an announcement is made 
and is posted? And if it is long, why does it take so long? Mr. 
Goldenkoff.
    Mr. Goldenkoff. Well, I think part of the answer to why 
there seems to be a disconnect between this 45-day hiring model 
and the perceptions of applicants is what the 45-day time 
period measures and what the applicants are expecting. The 45-
day time period, in my understanding, is from when the 
announcement closes to when an offer is made. But the 
applicants, what they care about is when they actually come on 
board. And the vacancy announcement could have been open for 
months. So from that perspective, it is a much longer time 
frame, so I think that in developing these hiring models, the 
hiring models need to get in sync with the expectations of the 
applicants. So I think that would explain that disconnect.
    As far as how long it should take, I can only speak for my 
own agency where the vacancy announcement is open for several 
weeks. There is a first paper cut, and those who make that 
initial cut come in for job interviews, and we talk to them 
face to face. So rather than applying these lengthy KSAs, we 
have already established the competencies that make a 
successful GAO employee. It is critical thinking. It is 
writing. It is oral communication skills.
    So then, in the course of the interview, we ask questions 
that get at those competencies. We just hired a bunch of summer 
interns back in March. I know in some cases for people that I 
interviewed, we called them up the next day to make job offers.
    Senator Akaka. Yes. Let me add another question to this, 
and that is whether you have any recommendations about speeding 
up this process. Ms. Bailey.
    Ms. Bailey. We are actually working with the Chief Human 
Capital Officers to develop this and look at it from end to 
end. You are absolutely right. The 45-day model is a nice 
start, but it is not truthful. And for employees, for potential 
applicants, what they are looking at is exactly as Mr. 
Goldenkoff has said, is that they are looking at when do they 
actually report on board. So it needs to be from the point that 
you drop the recruitment into the pipeline and then follow it 
the whole way through.
    The other thing that we need to do is improve the 
communications to the applicants. We fail at that mostly in 
that we use, again, as Mr. McDermott said, we are using 
automation to do some of that rather than to reach out to the 
applicant and say to them, ``Here is exactly what to expect. If 
you are applying for this job within the Department of Homeland 
Security, Defense, or wherever, you can expect 30 to 45 days 
for your security background investigation. It is very 
important to us, because you are protecting the borders of the 
United States, that you meet certain qualifications within that 
regard.''
    So some of this is just managing people's expectations. If 
I knew exactly how long it was going to take and you hit the 
mark on that, then I can plan my life around it. It is the 
inability of--or it is the surprise of not really ever knowing 
when you are going to get back to me that is the issue at hand.
    So part of the effort that we have with OPM that we are co-
leading with the CHCO Council is to make sure that we establish 
a government-wide standard that talks about what exactly it is 
from end to end, not talking anymore about the 45-day model, 
but from end to end what can you expect, and what should 
agencies hire within that? We are looking at around 80 days 
right now for the government-wide standard from end to end, and 
that includes the security and the suitability process of this 
as well.
    The other government-wide standard is the communications 
standard. We have to establish that agencies provide some type 
of communications to applicants.
    Senator Akaka. Mr. Crum.
    Mr. Crum. First of all, the 45-day standard is 45 business 
days. That is not necessarily meaningful to applicants because 
that translates to 63 real days for them. So it is 2 months for 
them, not really a month and a half.
    When we ask people who have recently taken Federal jobs how 
long the right amount of time would be, two-thirds of them said 
about 2 months. So, again, if they are kept informed, 2 months 
seems to be a reasonable time, if we can meet that. When we 
asked the people, again, who came on board with us, we found 
that really only about 35 to 40 percent of them were, in fact, 
hired within that time frame. That illustrates to me that it 
can be done, but it often is not done, that, in fact, the 
process often does take longer even though it could be quicker.
    There are a lot of the reasons, I think, for the fact that 
it takes as long as it does. One main reason is because of a 
lack of management commitment to do things more quickly. What 
we have heard from all of the panel is that when there is 
management involvement and emphasis, things can be done 
quickly. Things can be done and prepared in advance that 
sometimes are not. For instance, crediting plans may not be 
developed until applicants have already applied for jobs. This 
wastes time. Management may not schedule interviews except at 
their convenience rather than in a timely way that meets the 
needs of applicants. So a lot of the scheduling of things can 
be better controlled, I think, by the agencies, should they 
choose to do so. But it requires that sort of management 
commitment to make that difference.
    All the while I have to echo the other point that I made 
earlier: It is critically important that we keep applicants 
informed of their status. We lose, I think, a lot of people 
because it is a black hole to them. Applications come in, they 
do not know what happens.
    What we hear is that people are willing to take 2 months if 
they know where they are in the process, if they know they are 
being considered. When they do not know, even 2 months seems 
like a very long time.
    Senator Akaka. Thank you. Mr. McDermott.
    Mr. McDermott. Well, I should say that I have been working 
with Angie and Howie Weizmann because I need things--there are 
things I can learn from them. They are finding out good stuff. 
I have a little system. We call it ``Rats,'' because it rats 
out managers. It says, ``Where is the ball right now on this 
particular hiring case?'' And I find out that the biggest 
place, is awaiting a management decision on the selection. So I 
get apoplectic, and I start pounding on people and say, ``Come 
on.''
    We used to use an awful lot of panels where I didn't think 
we needed a panel. I just needed a good reviewer of the case. 
So I would ask myself, ``Who really wants to hire this person? 
Who needs the person?'' That is the person that I would appoint 
to be the reviewing official. Funny how fast it got done then, 
and it did not get delayed and delayed.
    The other thing, everybody has to get the equivalent of a 
secret, or an L clearance, to get in the door at NRC. That is 
sort of the pig and the python problem. The pig used to be at 
the front end of the python, and OPM--thank you very much--has 
fixed it. They are getting the investigations back to us in a 
pretty timely fashion now. The pig has moved down the python, 
and I am yelling at my security people, ``You need to hire more 
adjudicators.'' When I am desperate, I say, ``Would you go to 
that bookcase? I know that in that stack of files you have got 
one already back on so-and-so that I need today. So please pull 
that one and adjudicate it.'' An hour later, I get the word 
they are cleared, they are fine, bring them on.
    We have to deal with all the applicants that way because--
now, I do not have a problem with the college kids because I am 
hiring them, if I am smart, in November and December, and they 
are coming to work in May or June. I have enough problem to 
take care of that. But the mid-career person? They are not 
going to wait forever for the job. I have got to move them 
faster. So put them at the top of the pile. Those are the 
things we worry about.
    Senator Akaka. Thank you very much. I just want to be 
clear, before I call on Senator Voinovich for other questions, 
that I am not suggesting that candidates should not be 
assessed. We need to break down barriers that deter candidates 
from applying, and I thank you folks for your responses.
    Senator Voinovich.
    Senator Voinovich. Mr. Chairman, I have no more questions. 
I think you have done a good job. I think we should let these 
folks go and get to the next panel.
    Senator Akaka. Well, I do have more questions, and I will 
submit them for the record. And I want to really thank you for 
your responses. It has been helpful, and we look forward to 
continuing to work with you and look for the best ways of 
improving the process. So let me thank our first panel very 
much.
    Senator Voinovich. May I just ask one question.
    Senator Akaka. Senator Voinovich.
    Senator Voinovich. How long do you need to get the 
strategic plan in our hands?
    Ms. Bailey. Is 2 weeks OK?
    Senator Voinovich. That is fine. And if you cannot do it, 
then I would like you to call and say why you have not been 
able to do it. OK?
    Ms. Bailey. I will, Senator.
    Senator Voinovich. Thank you.
    Ms. Bailey. Thank you.
    Senator Akaka. Well, again, thank you very much to our 
first panel. I will be calling up panel two. Thank you.
    We are happy to have our second panel here: John Gage, who 
is the National President, American Federation of Government 
Employees; Colleen Kelley, National President, National 
Treasury Employees Union; Dan Solomon, Chief Executive Officer, 
Virilion, Incorporated; Max Stier, President, Partnership for 
Public Service; and Donna Mathews, Principal, Federal Sector 
Programs, Hewitt Associates LLC.
    Our Subcommittee rules, as you know, require that the 
witnesses testify under oath, so will you please rise and raise 
your right hand? Do you solemnly swear that the testimony you 
are about to give the Subcommittee is the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Mr. Gage. I do.
    Ms. Kelley. I do.
    Mr. Solomon. I do.
    Mr. Stier. I do.
    Ms. Mathews. I do.
    Senator Akaka. Thank you.
    Let it be noted in the record that the witnesses answered 
in the affirmative. Let me also remind you that although your 
oral statement is limited to 5 minutes, your full statement 
will be included in the record.
    Mr. Gage, will you please proceed with your statement?

TESTIMONY JOHN GAGE,\1\ NATIONAL PRESIDENT, AMERICAN FEDERATION 
                OF GOVERNMENT EMPLOYEES, AFL-CIO

    Mr. Gage. Thank you, Mr. Chairman, for the opportunity to 
testify here today on the question of overcoming obstacles to 
the hiring of the next generation of Federal employees. It is 
important to remember that, despite notions to the contrary, 
the private sector's hiring methods are neither instantaneous 
nor trouble-free. In addition, while the Federal Government has 
some problems in its hiring practices, it is not the bumbling 
caricature it is so often portrayed to be. Moreover, we do not 
believe that the problems with Federal hiring are caused by 
adherence to the merit system and veterans' preference.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gage appears in the Appendix on 
page 75.
---------------------------------------------------------------------------
    Hiring the next generation of Federal employees is a 
serious undertaking. Those charged with the task have a legal 
and social responsibility to conduct hiring in the most open 
and fair way possible, and the plain fact is that openness and 
fairness take a little time. Federal agencies must honor 
veterans' preference. Internal candidates who were selected 
into career ladder positions must be given the opportunities 
they have been promised. Background checks and security 
clearances have to be conducted. Education and prior employment 
must be verified. Working for a Federal agency is not the same 
as working at a pizza parlor, and it takes time to make sure an 
applicant meets the standards and requirements our society 
expects the Federal Government to uphold.
    Another explanation for the slowness in Federal hiring is 
the fact that agency personnel offices have often been 
decimated. There are too few hiring personnel to handle the 
duties in the most expeditious way. Hiring more Federal 
employees to work in agency human resources offices would 
obviously speed up the hiring process. The application process 
could also be streamlined without sacrificing the high 
standards of the merit system. Many prospective employees point 
to the lengthy sections of employment applications that require 
them to describe in great detail their ``knowledge, skills, and 
abilities.'' Some suggest that only those who pass an initial 
level of scrutiny be invited to fill out those forms. If that 
procedural reform were adopted, those asked to reveal their 
``knowledge, skills, and abilities'' would at least know that 
they had successfully navigated the first hurdle in their quest 
for Federal employment and may perhaps be somewhat less 
resentful of the task.
    The Federal Workplace Flexibilities Act of 2006 enabled 
agencies to entice both internal job candidates and candidates 
who were not yet Federal employees with large bonuses equal to 
as much as 100 percent of salary for recruitment, retention, 
relocation, and promises of help with student loan repayment. 
But not only has there been no funding for those flexibilities, 
the Administration has been at war with its own workforce on 
issues ranging from pay to outsourcing to collective bargaining 
to politicizing what should be absolutely apolitical government 
work.
    The Administration's pay policies have hurt both 
recruitment and retention. For the General Schedule and the 
Federal Wage System, the Administration has proposed 
insultingly low pay adjustments in every annual budget. Without 
Congressional intervention, the real inflation-adjusted value 
of the Federal paycheck would have fallen considerably over the 
last 7 years. In addition, there has been a constant drumbeat 
of Administration complaint that the employees who received 
Federal pay raises did nothing to deserve a salary adjustment 
beyond surviving the ``passage of time.'' They argue that a new 
system based upon a supervisor's opinion of each employee's 
performance was needed. Yet in the two agencies where the Bush 
Administration obtained authority to do, the impact has been 
even worse. In addition to low morale in numerous large 
agencies documented by the OPM's biennial Human Capital Survey, 
the prospect of a corrupt and highly politicized pay-for-
performance system has prompted many to plan to retire or 
transfer as soon as the new pay system is imposed upon them.
    Although much emphasis is placed upon external candidates 
for Federal jobs, the retention of current employees should 
also be a priority because they often make the best candidates 
for Federal job openings. The Federal Government's policies 
should encourage the employees in whom it has already invested 
to look for career development possibilities within the 
government rather than outside it.
    And every time I see or hear an advertisement on radio or 
television for the military, I wonder why Federal agencies are 
not permitted to do the same thing for civilian Federal 
employment. The commercials for the Army, Navy, and Marines are 
compelling, professionally produced, and placed on the air at 
times when they are likely to have the greatest impact. I have 
no doubt that these advertisements have contributed greatly to 
the military's ability to recruit even in a time of war. In 
contrast, Federal agencies are limited to using relatively 
inexpensive media and placing their on-air advertisements at 
inauspicious times, with predictable results.
    In conclusion, Mr. Chairman, I heard a lot today that I 
think our union can get behind, and I would like to say that 
for AFGE, some of the ideas I have heard are good, and we would 
certainly like to be part of the solution rather than the 
problem.
    Thank you, Mr. Chairman, for the opportunity to testify.
    Senator Akaka. Thank you very much, Mr. Gage.
    Ms. Kelley, will you please proceed with your statement?

TESTIMONY OF COLLEEN M. KELLEY,\1\ NATIONAL PRESIDENT, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Ms. Kelley. Thank you very much, Chairman Akaka and Ranking 
Member Voinovich. I appreciate the opportunity to be before you 
today to review the challenges to recruiting and hiring 
candidates for Federal Government jobs and to offer some 
recommendations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kelley appears in the Appendix on 
page 81.
---------------------------------------------------------------------------
    Because we have had no comprehensive approach to hiring in 
the government since the PACE exam was thrown out in 1979, 
agencies have been tinkering with ways to attract and hire new 
employees. Unfortunately, that tinkering has often resulted in 
a narrow applicant pool and the end of what should be fair and 
open competition for Federal jobs. MSPB has found that between 
2001 and 2004, competitive examining was used for only 29 
percent of total hires. I will address this first problem in 
greater detail.
    One of the tools that agencies increasingly rely on is the 
Federal Career Intern Program. This FCIP was originally 
intended to be a special focus hiring tool, aimed at providing 
structured, 2-year training and development ``internships.'' 
FCIP is now the hiring authority of choice in many agencies in 
the Federal Government.
    Since 2002, Customs and Border Protection has hired all of 
its officers under this program. For fiscal year 2005 and 2006, 
that is close to 5,000 employees. The IRS now fills positions 
such as revenue officer and revenue agents using the FCIP, and 
the FDIC has begun filling most entry-level positions using 
FCIP. We believe that FCIP rules give agencies excessively 
broad discretion to depart from the carefully designed and 
statutorily mandated competitive examination and selection 
requirements for the Federal Civil Service. Vacancy 
announcements do not have to be posted under FCIP. Veterans' 
preference rights are diminished under FCIP, and agencies have 
discretion to make selection decisions without following rating 
and ranking processes or merit promotion plans. These misnamed 
``interns'' are hired into the accepted service, creating a de 
facto 2- or 3-year probationary period instead of the standard 
1-year probationary period for entry-level positions in the 
competitive service.
    In addition, although the Homeland Security Act contained 
changes from using the rule of three to what they call 
``category hiring,'' Homeland Security hardly uses this. As do 
most agencies, they ignore it. Instead, they are relying on the 
FCIP, which MSPB studies have shown can narrow the applicant 
pool and create the perception of ``unfair, arbitrary, or 
inequitable treatment.''
    One of the most frustrating things I hear is that if only 
management had more flexibility, they could recruit and retain 
employees much easier. It is frustrating to me because there 
are already flexibilities available to managers that they 
rarely use, including recruitment and retention bonuses, 
student loan repayment programs, telework, and flexitime. With 
greater use of these flexibilities, I believe we can attract 
more workers. I understand that in many cases, agency budgets 
have been slashed so significantly that there is no money for 
these flexibilities. Maybe we need to consider mandating that 
funds be allocated to these accounts so that they can really be 
used
    In addition to hiring policies, we need to focus on how to 
retain good employees. Currently, Federal workers see their 
jobs threatened by contracting-out competitions, with money 
needlessly spent proving they can do their jobs efficiently; 
they see a continual assault on their benefits, paying more for 
less every year; and they feel that although they work in the 
Federal Government because they want to make a difference, 
often management does not respect that or their dedication.
    The Department of Homeland Security recently released its 
annual workforce survey. The employees of Homeland Security 
overwhelmingly believe in what they do and regard it as an 
important part of our Nation's safety. Unfortunately, that is 
about the only good news in the survey. Just 30 percent of 
Customs and Border Protection employees responded that they 
were satisfied with their involvement in workplace decisions. 
Only 27.1 percent believe their leaders generate high levels of 
motivation and commitment. At TSA, only 20 percent of employees 
believe that promotions are based on merit. Only 22 percent of 
TSA employees felt that creativity and innovation are rewarded,
    Our transportation security officers at our airports are 
subject to most of the human resource management flexibilities 
this Administration often points to as advancing the 
recruitment and retention of a high-quality workforce. Those 
``flexibilities'' at TSA have resulted in one of the most 
egregious personnel systems in the government. With management 
given a free rein, promotion rules are unknown, bonus points 
are distributed by favoritism, scheduling is at the whim of 
management, and you can be fired and told to go home for the 
slightest infraction or maybe without even knowing why. 
Grievances, filed in accordance with their internal grievance 
rules, sit stacked on a desk. All this and the lowest pay in 
the government, the lowest morale, and the highest attrition 
rate and injury rate. TSA is no showcase for anything except 
the worst-case scenario when the merit system is not followed.
    I believe we have it in our power to fix these problems. I 
think that OPM has to take a leadership role with the agencies. 
In addition, we believe that OPM needs to step up to its 
marketing and outreach to workers of all age groups. We would 
like to see a blueprint put together and funded by Congress for 
younger workers that would include TV ads, college campus 
tours, and job fairs. We need a comprehensive plan to increase 
the odds that the Federal Government can attract the best and 
the brightest that this country has to offer. The Federal 
Government's missions will be complicated in the years ahead. 
We need to attract and retain a workforce that will meet these 
challenges, and NTEU also stands ready to work with OPM and 
with Congress to put in place systems that will ensure that the 
Federal Government becomes the employer of the future.
    Senator Akaka. Thank you very much, Ms. Kelley.
    Good to have you, Dan Solomon. Please give your testimony.

TESTIMONY OF DAN SOLOMON,\1\ CHIEF EXECUTIVE OFFICER, VIRILION, 
                              INC

    Mr. Solomon. Thank you, Mr. Chairman and Senator Voinovich. 
I very much appreciate this opportunity to testify today. I 
have been asked to present my views regarding how Federal 
agencies can improve their recruitment to be more friendly to 
those between the ages of 25 and 35 years old through new media 
techniques.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Solomon appears in the Appendix 
on page 89.
---------------------------------------------------------------------------
    At the outset, let me state my deep admiration for those 
who serve the public through their Federal service. Personally, 
I have been honored to hold civilian positions in all three 
branches of government. I learned a great deal from those 
professional experiences and hope that my efforts were 
beneficial to those I served.
    Also let me express my appreciation for those who have 
primary responsibility for recruiting younger people for 
Federal service. Younger people are a difficult group to reach 
and engage.
    I will not take the Subcommittee's time to recount the 
substantial research that shows the shift in media consumption 
patterns, especially among those 25 to 35 years old, away from 
television to online. And online, these people have a vast 
array of outlets and activities presented to them--causing the 
audience to be highly fragmented. And it is this rapidly 
changing and increasingly rich media landscape that makes the 
recruiters' job even more difficult.
    That said this new media environment gives government 
agencies a greater opportunity to reach people who are in the 
process of looking for new career opportunities and to reach 
people without geographic limitations. Bottom line: People are 
looking for jobs are online and the government needs to be 
there to attract the best.
    Government recruiters should be encouraged to deploy the 
appropriate new media techniques at each stage of a job search 
or career change: When a person might be exploring Federal 
service, when they are considering different options, and when 
they are actually making the employment decision.
    The Internet is now the most frequented place to look for a 
job. According to a survey conducted by the Conference Board 
and TNS, nearly three-quarters of workers who looked for a job 
between January and September of last year did so online. But 
it is no easy task for government recruiters to decide where to 
go online to attract job seekers and career changers.
    Search engines, such as Google and Yahoo!, are the on-ramp 
online for most people. If one types in ``Federal jobs'' into a 
search engine, USAJOBS--the government's official job site--
comes up prominently. But the challenge for recruiters is how 
to reach those who are not specifically looking for a Federal 
job.
    There are over 50,000 job boards online in this country. 
These include sites that are affiliated with newspapers, 
independent career sites, geographic specific sites, and niche 
sites run by professional associations and industry groups. 
Where to post and how to use these sites is a challenge for 
government recruiters.
    Social networking sites, such as LinkedIn and those 
sponsored by alumni groups, are increasingly popular for job 
hunting. According to a survey done by SelectMinds and reported 
in eMarketer, nearly three-quarters of GenYers said they viewed 
these networks as very important, compared with 66 percent for 
those between 30 and 39 and 61 percent of workers over the age 
of 40. The challenge for the government recruiter is to 
appropriately participate in these communities to attract the 
attention of talented people.
    The Federal recruiter also needs to use online techniques 
to support their more traditional efforts offline. Offline 
efforts are, in fact, important to attracting people's 
attention. According to a 2007 study, in-person networking was 
used by 40 percent of the people to find jobs, and university 
career centers were used by 37 percent of college students. And 
according to the previously mentioned Conference Board study, 
more than one-half of job seekers said they networked through 
friends and colleagues.
    In this regard, Federal recruiters need to be recruiters--
actively following up on possible leads they have generated 
through their own networking efforts by the systematic use of 
e-mail. Over time, these techniques in the Federal recruiters' 
arsenal will include the use of mobile devices.
    The Federal recruiters also need to use new media 
techniques to reach the people who might influence the career 
decisions of the 25- and 35-year-olds offline--particularly 
their parents and their friends. Sometimes the primary audience 
is not the job seeker themselves. This will take creativity, 
but needs to be an important focus.
    One thing is certain: The career of a Federal recruiter is 
certain to change, and I encourage the Subcommittee to look not 
just at what agencies can do to improve their communication 
efforts and their processes, but also to help the recruiters 
themselves improve their skills and expertise. For the 
government to ultimately attract talented people, Federal 
recruiters need to embrace the online world and convey an 
excitement about public service.
    Thank you, and I look forward to your questions.
    Senator Akaka. Thank you very much, Mr. Solomon. Mr. Stier.

   TESTIMONY OF MAX STIER,\1\ PRESIDENT AND CHIEF EXECUTIVE 
            OFFICER, PARTNERSHIP FOR PUBLIC SERVICE

    Mr. Stier. Thank you, Chairman Akaka and Senator Voinovich, 
for inviting me here, and more importantly, thank you for 
focusing on this vital issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stier appears in the Appendix on 
page 92.
---------------------------------------------------------------------------
    If I could take a step back and give a sense of what I see 
as the overall problem: I agree with OPM this is an end-to-end 
issue. You have three big buckets.
    First, the talent market is unaware of the opportunities 
that exist in government service. They simply do not think 
about it. It is not on their radar screen. And our data shows 
that is true for young talent as well as more experienced 
talent.
    Second, as this hearing has been hearing a lot about, the 
hiring process is broken, and more on that in a bit.
    But third, and equally important, once talent arrives in 
government, it is not managed in a way either to keep it or to 
ensure that it gives of its discretionary energy. So we need to 
work on all three buckets in order to ultimately get the end 
result of better performance from government.
    Your work is already making a very big difference. You 
heard a little bit about that from the first panel. I also 
wanted to focus on another example, and that is in the area of 
student loan repayment. That is a new barrier to entry for 
talent coming into government, for younger folks in particular, 
and it is an increasing burden as the cost of college and 
graduate education goes up. The student loan repayment 
authority that the government has is very important, and you 
see its use is increasing dramatically, from a standing start 
of nothing in 2002, 16 agencies using it for $3 million and 690 
employees being helped, to 2006 in which you had 34 agencies 
and nearly 6,000 employees being helped to the tune of $36 
million.
    Now, clearly, more can be done. It is very powerful. Our 
data shows that it actually works, and we need to see more 
resources being put into it. But the point here is your work 
already is making a real difference.
    You also have a number of items in the pipeline that are 
very important, including your work on the Chief Management 
Officer, Senator Akaka, your Federal Supervisor Training Act, 
GOFEDS legislation, and many other things.
    I want, however, to pull out three specific recommendations 
to highlight from my written testimony. There are a lot of 
others in there, but I will focus on those three for the 
remaining time of my statement.
    First, I think we need to rethink that hiring process, 
again, from the applicant perspective and envision a bill of 
rights, an applicant bill of rights for how they should be 
treated through that hiring process. It needs to be clear. Two, 
they need to understand the value of the jobs and why they 
should be interested in them. It should be easy. Your point 
about going to a resume, I think, is exactly right. You do not 
need the KSAs. It needs to be transparent. Three, You need to 
know where you are in the process. If FedEx and UPS can do that 
with a package, government ought to be able to do that with 
someone in the hiring process. And, four, it needs to be 
timely, and it needs to be done in a time frame that is not 
going to chase away a lot of talent.
    Those I believe are the four elements of what the applicant 
bill of rights ought to be, and it is something that the 
government needs to commit to doing and that you can hold the 
government accountable for.
    Now, we also can't lose sight of the assessment process, 
which is not part of the applicant experience, and right now, 
by and large, the government assessment process is broken. And 
if you hire quickly or slowly, it doesn't much matter if at the 
end of the day you hire poorly. And so that is something that 
we need to make sure we keep an eye on.
    Second, we need improved metrics. Now, how are we going to 
ensure that the applicant bill of rights is actually taking 
place? Well, we need to measure it in a transparent way. It 
needs to be public information so we really do understand how 
long it takes. We need to give people an understanding of where 
they are in the process. You can do that through applicant 
interviews. You can do that through what I think is going to be 
absolutely vital on the assessment process, which is 
identifying a metric for whether we are getting the right 
talent. If you really want to make sure that agencies are 
better managing this process, measure them and make those 
measurements transparent and available to you and to the public 
more broadly.
    I also think we need to reinforce the work you have already 
done around employee surveys, which are quite vital, and I 
think we can improve the legislation such that it is done 
centrally on an annual basis rather than the current process, 
which is biennial and each agency doing it on those off years.
    Third, is the transition. We have heard some very important 
things out of OPM, work that they are doing right now. We all 
know that the typical cycle in government is for things to 
either slow down or stop and then be reinvented when the next 
folks come in. And I think that this Subcommittee has a very 
important role in ensuring at least three things around the 
transition process:
    One, that the good management work that is being done right 
now gets carried on, and is absolutely important that we simply 
do not see either a slowdown of work or a reinvention of things 
that do not need to be reinvented.
    Two, we need to ensure that we are selecting the right 
talent for, in particular, the management positions that are 
going to be politically appointed, but more generally, that all 
political appointees that have management responsibilities have 
management capacity.
    And, three, we need to focus on ensuring that whoever is 
selected for those political jobs is actually prepared to work 
effectively in this environment. And there is a lot of work 
that needs to be done, and that means that they have to be 
prepared to understand how the system works, what the 
management challenges are, and how it is that they can actually 
engage and work with the career workforce in a way to solve 
these problems that all of us believe need to be solved.
    So thank you very much again for this opportunity. I look 
forward to working with you going forward.
    Senator Akaka. Thank you very much, Mr. Stier.
    Now we will hear from Ms. Mathews.

   TESTIMONY OF DONNA MATHEWS,\1\ PRINCIPAL, FEDERAL SECTOR 
                PROGRAMS, HEWITT ASSOCIATES LLC

    Ms. Mathews. Thank you, Chairman Akaka and Senator 
Voinovich. Thank you for allowing me to appear before you today 
to talk about this important issue and how leading companies 
approach recruitment.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Mathews appears in the Appendix 
on page 102.
---------------------------------------------------------------------------
    As you have heard a lot of the other panel members say 
today, it is expected that the next 5 to 10 years are likely 
going to be the most difficult recruiting environment in 
history: One, because we are faced with a shrinking workforce. 
It is estimated that by the year 2010 there will be 10 million 
more jobs than workers. Two, the workforce is becoming and will 
continue to increasingly become more virtual. Three, the 
workforce will become more diverse even than it is today. The 
global competition for talent will continue to increase. And, 
last, when it comes to the recruiting process itself, each of 
the individual stakeholders' needs are going to continue to 
change as we move forward into the future.
    So if organizations do not address these challenges, their 
results will include mediocre hires, long hiring cycles, higher 
than expected costs, low retention rates, and a negative impact 
on the organization's employment brand.
    Hewitt has worked with many large, private sector 
organizations over the years, and we have found that there are 
a lot of effective processes that can be put in place to make 
for a successful recruiting process. There is no silver bullet, 
however, but successful organizations do have four themes going 
for them.
    First, these organizations make talent acquisition the 
lifeblood of their success. As Mr. McDermott said, their 
leaders are very heavily involved. They become recruiters for 
the organization, and they continually are talking about the 
mission of the organization and what kind of people they need 
and the results they need for the organization.
    The second theme is a clearly articulated employment brand. 
We think a lot about a company's brand to the market, but this 
is the company's brand to its employees. It is a unique message 
from the employer to its employee base reinforcing the 
commitment that that employer makes to the employees. It is 
used to guide all decisions around the human capital programs. 
And companies that have these employment brands--and not 
everybody does--have reported an increase in not only employee 
retention, but also employee engagement, which results 
ultimately in improved business results.
    The third aspect that leading organizations focus on is 
creating the process, this end-to-end process that you have 
heard a lot about today. The first thing they do is from a 
business perspective they develop workforce plans. Basically, 
they look at the business results that they desire, and they 
figure out what kind of talent they are going to need for the 
next 3 to 5 years to get to those desired business results.
    They focus on sourcing in a lot of different ways, and that 
is changing, again, as we move forward into the future. They 
actually do sourcing campaigns like employee referral programs, 
vendor relationships, and even people that are in the job--that 
are seeking jobs today, they will use those as sourcing 
opportunities also. They target diversity groups, university 
alumni, veterans returning to the workforce, stay-at-home moms. 
They even target people that have left the organization maybe 
in good favor that might want to come back.
    And then there is the talent assessment process, which, 
again, you have heard a lot about today, but they look beyond 
just the job requirements and the current capability of the 
candidate to what future potential and what role could this 
candidate play for the organization. They are really looking 
for elusive, sort of ``hungry'' quality--the people who are 
always unsatisfied with the status quo, their achievements to 
date, and willing to out-work and out-hustle the competitors.
    And they have a formal onboarding and orientation process, 
and the companies that do this successfully are not viewing the 
orientation as a 1-day event. It is an ongoing process, and 
senior leaders are very involved and very visible. They measure 
the performance, especially in the first year, but in an 
ongoing way, in a very formal way. And they have the courage to 
deploy people in the best jobs for those individuals.
    Finally, they use a lot of technology. They use technology 
for the entire recruiting process, and, again, technology does 
not fix broken practices, but it does speed up the process and 
helps employers measure the effectiveness. So as we know, 
employees are the lifeblood of the organization and how an 
organization recruits, who it recruits, the accountabilities in 
place in the process all have a dramatic impact on the 
business, whether it is public or private.
    Thank you. I look forward to your questions.
    Senator Akaka. Thank you very much, Ms. Mathews.
    You all have been listening to the first panel respond to 
concerns about the need to address better recruitment, length 
of hiring process, complicated requirements, and a lack of 
communication. I want to ask each of you what you think of the 
first panel's recommendations and recommendations on how to 
improve the hiring programs. So let me start with Mr. Gage.
    Mr. Gage. I think I agree with a lot of them, I especially 
like Mr. McDermott, who said if you want to get it done, get 
the operational manager who has to have the employee, get him 
involved in that process. And it is interesting because in 
internal promotions it is this operational manager in most 
cases who will make those selections. But it seems that 
external hiring, it will be an HR person that might do that. So 
I thought that was very interesting.
    But I think both of you are on the right road here. It is 
practicalities, assure the fairness, but speed it up through 
abandoning the KSAs, for instance, which are really a mess. I 
do not think there is any way you really can write 
qualifications for the job down to bathroom breaks and expect 
someone to come in and try to meet those.
    So I think your emphasis on real practical approaches is 
the way to go, and I thought I heard some during the first 
panel.
    Senator Akaka. Thank you. Ms. Kelley.
    Ms. Kelley. It was very good to hear NRC talk about how 
they have used the flexibilities that they were given and that 
they have put them to good use for the success of the agency. I 
wish there were more agencies that were doing that. For the 
most part, what I see agencies doing is having more 
flexibilities but not using them. So that was good news, and I 
hope others would follow suit.
    What I think has to happen is there has to be leadership 
from OPM, and we heard Ms. Bailey talk a lot about that, about 
what they are doing. And while I take that as very good news, I 
do have to say I was a little bit struck when you were asking 
her who all they were working with, and she had a very long 
list. They are working with the Chief Human Capital Officer 
Council and the Partnership for Public Service and GAO and the 
agencies and the communities. She never mentioned the unions, 
and I can tell you that on this subject they are not working 
with the unions.
    It reminded me, actually, that late last week we received 
an invitation from OPM to attend a briefing they were holding 
yesterday on hiring. And I thought that was pretty interesting 
considering this hearing today. So we would have gone to the 
briefing anyway, so NTEU went to the briefing, and what we were 
told at the briefing was that OPM is going to publish a booklet 
of best practices, as they see it. They are going to publish 
this booklet in September on hiring, and we offered and 
requested to be involved in the process to provide input. And 
we were told no, that they were not interested in our input, 
that they were going to issue the booklet, and that they would 
send us a copy when they issued it in September.
    So while I would like to see OPM play a leadership role on 
this and take a leadership role, I would surely ask that they 
ensure that they have everyone involved in the conversation 
that should be. And I know that both you, Mr. Chairman, and 
Senator Voinovich would say that the unions should be in that 
conversation. And I hope the message from OPM changes on this.
    Senator Akaka. Thank you, Ms. Kelley. Mr. Solomon.
    Mr. Solomon. Yes, I was impressed by the testimony relating 
to the value and the importance of management passion rather 
than just systems and processes, because at the end of the day 
it has to be the human beings that are passionate about what 
they do that will convey it externally. So I like that.
    In terms of the OPM, I thought it was slightly misplaced in 
terms of that the objectives seemed to be internal 
collaboration and that all the bases were being touched and the 
voices of the applicant were not at that table, not active in 
seeing the value and making sure that the value of the process 
was used focused, applicant focused, rather than just meeting 
the needs of the internal stakeholders.
    And, finally, what I thought was somewhat missed by all the 
presenters was that they focused on the efficiencies of the 
hiring process rather than what is needed in the actual 
recruitment process to get people's attention to become 
interested. It seems that much of the focus of the attention is 
that once somebody is at the Federal Government's door, how do 
we process them and take advantage of their interest, rather 
than or in addition to--and this goes back to the three 
buckets--in addition to focusing on the period of time and the 
effort that it is going to take to even get people to consider 
the Federal Government in the first place, and especially 
people between the ages of 25 and 35, who have demands in their 
lives, who have responsibility, who are probably looking for a 
career change and looking for a different type of opportunity. 
How to get those people's attention is, I think, and needs to 
be as much of a focus as making sure that the hiring process 
itself is efficient.
    Senator Akaka. Thank you. Mr. Stier.
    Mr. Stier. Mr. Chairman, I concur with everything that has 
been said already. The one thing that I would just focus on is 
the fact that it has been a very long time that the hiring 
process and some of these issues has been noted as an issue, 
and yet we still find it to be a problem. And so what I would 
suggest, if we were to focus on a single item that would help 
generate change, it would be transparency and metrics, or 
metrics that provide transparency, because you will find 
examples that are terrific, like at NRC. You will find examples 
of agencies that meet the 45-day hiring model. But unless it is 
transparent for all agencies, we will not know where the 
problems are. They will not feel the heat of public shame as 
well as public accolades for good behavior, and that is what we 
need to see happen. We need to make sure that these processes, 
the consequence of these processes are being understood and the 
information is available. And I think that would provide a very 
important prod to see movement. A lot of this is about 
implementation more than anything else. Lots of good ideas, 
there are plenty of those, but getting things done, that is the 
rarity.
    Senator Akaka. Thank you. Ms. Mathews.
    Ms. Mathews. It sounds like the NRC is doing a really good 
job in a lot of different areas, and I want to commend them for 
that. But one of the things that I think they are doing that a 
lot of the other agencies and organizations really need to 
focus on is that they are defining up front what kind of 
employment experience or career a person is going to have with 
the NRC.
    So if you think about it, I mean, why should somebody come 
work for the government? You really need to define that and 
actually market that. So somebody coming out of college, some 
mid-career person, why should they choose the government over 
Google or over Microsoft? So defining sort of that brand for 
the government and what is in it for them actually is probably 
the first step, and then having the end-to-end process. Again, 
it is not about the processes as much as selling what the 
potential candidates are going to get out of this career with 
the government.
    Senator Akaka. Thank you very much.
    In the interest of time, let me then ask my Ranking Member 
for his questions.
    Senator Voinovich. Is there a human capital crisis out 
there?
    Ms. Mathews. Absolutely.
    Mr. Stier. Yes.
    Mr. Gage. Yes.
    Mr. Solomon. Yes.
    Senator Voinovich. And Ms. Kelley and Mr. Gage both feel 
that way about the Federal Government. You have a lot of your 
members at or nearing retirement.
    Ms. Kelley. I think there is a crisis today, and I think it 
will get worse in the future unless things change.
    Senator Voinovich. Mr. Gage, you questioned why it is that 
the Federal Government does advertising for the armed services 
and nothing for the civilian workforce in the Federal 
Government. I would like all of the panelists' opinion on 
whether or not you think that we should ramp up an advertising 
campaign about the opportunities that one has through work with 
the Federal Government. I know that, Mr. Stier, you advertise 
at the college campuses, but I do not think there is enough of 
an appreciation currently with the public about the 
opportunities that one has to come to work for the Federal 
Government.
    Mr. Gage. I do not see how it could possibly hurt, and I 
think it might correct a lot of things very quickly, certainly 
getting the proper applicant pool. I think the Federal 
Government still in this day and age has a real draw to not 
only students coming out of college, but also people in mid-
careers. There is something about working for the government. 
There is a steadiness to it. There are predictable benefits, 
certainly in health care as well as in still a defined 
retirement benefit, which I think--plus the great work that 
government agencies do in showing a career in that agency, as 
one of the gentlemen mentioned, from the NRC, I think is 
something that would really increase the applicant pool and 
really let people know what they are getting into ahead of 
time.
    Ms. Kelley. I would think it would help also, and I guess 
it depends on whether or not college students today watch a lot 
of TV, whether or not they catch the ads, but maybe their 
parents and their siblings would to call their attention to it. 
But I think it needs to be in a combination with other things, 
including the job fairs and being out on the campuses. I mean, 
I will use myself as an example.
    When I joined the IRS as a revenue agent--and it was many 
years ago, more years than I want reflected in the 
Congressional record, but I did that because they came to my 
college campus. I had never once considered a job with the 
Federal Government. I knew nothing about it. So it was not that 
I considered it and was not interested. I just did not have any 
information until they came there, and they talked to me, and 
they gave me information, they answered my questions. And that 
is where I got the application, and that is where I filled it 
out.
    I think that is what a lot of college students are looking 
for today, is unless they know specifically what they want to 
do in the next 5 years of their life, they are looking for what 
their options are. And I think it runs the whole gamut, from 
the TV ads to the face to face out there on the college 
campuses.
    Mr. Solomon. I think the simple answer is yes, especially 
for those who are between the ages of 25 to 35. It seems from 
the people who are testifying that a lot of attention is paid 
to people just entering the workforce rather than people who 
are experienced and seeking an alternative place to learn more 
and to apply their skills or to have career advancement. And it 
may be people who do not want to spend their entire career with 
the Federal Government but are willing to commit a period of 
years. And I think that the promotion needs to not just be 
traditional advertising, but to also unleash the recruiter to 
actually participate in the conversation somehow in the social 
media about the job opportunities and the career opportunities, 
and also encourage people who are actually doing the work to be 
actively engaged in recruitment, to talk to their neighbors, to 
use their online communities, to talk about the benefits of 
their job.
    I know in the private sector everyone in my office is part 
of the recruiting team. It is not an office down the hall. It 
is not left to somebody else's budget. It is something that 
everyone actively does, and that is why we are successful.
    Mr. Stier. Senator, there is no doubt that this is very 
important, and our research shows that. We have done research 
on university campuses, and I would add that the only market 
research I am aware of shows only about 11 percent of college 
juniors and seniors feel they are reasonably well informed 
about government opportunities.
    It is the same case for older Americans, too. It is simply 
not on their radar screen. The good news is when they are told 
about the opportunities, they are very interested in them. They 
simply do not know about them, and filling that information gap 
is something that can be done.
    I would add, however, that it needs to be viewed, again, as 
part of this holistic system. So simply attracting a huge wave 
of new folks in, while very important, is going to run into a 
problem if the hiring process is unable to deal with them, and 
instead it might reinforce a stereotype of government being 
overly bureaucratic.
    I would also say that the Federal Government's own capacity 
to recruit effectively needs to be built up as well. So as an 
example--the military is a great example. They have done the 
market research to understand how to attract the talent they 
need. But they also understand what exact talent they do need, 
and they know how to measure for what talent they are trying to 
receive. They know how much it is going to cost to train that 
talent. They invest in retaining that talent, and those are all 
processes that need to take place.
    We have done this research. We know the baseline, what 
needs to take place on university campuses. We know that 
relationships need to be created. By and large, it is 
transactional right now. Agencies go out when they think they 
need to hire someone.
    Senator Voinovich. You talk about the military, and they 
have got the big budget, all that money we pour into the 
Federal budget for the armed services. You are on the college 
campuses. Do you observe that these agencies have been given 
the wherewithal to hire the people to do the jobs that are out 
there? And do they have quality human capital officers working 
in the various agencies that get it?
    Mr. Stier. It is no and no, and they need more. There are 
other noes as well. They do not have the resources that are 
being dedicated to effectively recruit. They do not have the 
personnel to actually manage the process right. They do not 
have the leadership commitment because, again, as you heard 
from Mr. Solomon, the reality is the only way this worked is if 
the leadership cares about the talent that they are trying to 
recruit and develop, and they have to see that as a priority.
    I would point to, as one example, GAO where they assign 
their senior managers who are responsible for relationships 
with different universities. They are held accountable. Their 
performance reviews include whether or not that talent is 
coming from those campuses and whether that talent is 
succeeding in GAO. And that is very important. So they have a 
commitment to make sure they get the right talent in and that 
that talent actually succeeds. And that is absolutely vital.
    The point here is that almost on any issue you will find 
agencies that are doing the right thing in some places, but, by 
and large, you will find that they are doing the wrong things 
in most places. And so the challenge here is how you ensure 
that those right practices are being adopted by a broader set 
of agencies. It will take more resources. It is going to take 
more than that.
    Ms. Mathews. I would expand on that just briefly. The 
leadership has to care. They also have to know. They have to 
know what talent they need, and if you are going to do more 
advertising, you have to know what messages to deliver to the 
different generations of people that you are trying to attract.
    Senator Voinovich. Mr. Chairman, one of the things that we 
did when we created the CHCO Council and elevated human capital 
was to try and get agencies to start paying attention to 
succession planning and transition. I wonder how many of them 
are really engaged in such activity today. The Government 
Performance and Results Act (GPRA), never contained anything 
about the personnel that you needed to get the job done in the 
agencies. In spite of all the work that we have done, how many 
of these agencies are actually looking at what they need for 
the future? You have to first know what you need. Once you 
realize what you need, then you can go out and recruit a 
highly-skilled workforce. Any comment?
    Mr. Stier. You are right. And, Senator, I think you are 
asking questions--and this is my point about the data. You are 
asking a lot of very good questions, and you should have that 
information available to you. And, again, you cannot ask for 
too much information, but I think there are a set of questions 
that you reasonably asked that should be answerable on a 
regular basis so that you can hold agencies accountable.
    There is no doubt that the human resource function needs a 
significant investment in government, writ large. The actual 
head count is down something like 20 percent, but more 
importantly, the actual competencies that are needed are simply 
not represented today, and they are disappearing. And you can 
see that both among the senior leadership as well as within the 
ranks. You need to see a very substantial investment take place 
there in order to have the expertise to help the whole 
government and agencies individually get to where they need to 
go.
    Mr. Solomon. And I would like to add that I think although 
more resources are needed, you do so in the context of defined 
measurements that the Congress will hold the Executive Branch 
accountable for. You need to make your own job easier, not just 
bring stories to the fore, as Mr. Stier has said, but match it 
together with some accountability towards very certain 
objectives.
    Ms. Kelley. And I would also add that this whole issue of 
resources is often part of the problem with the agencies, 
whether it is about hiring or defining what work they want to 
do. I think it was Ms. Mathews who said that an agency has to 
decide what work they want done and then what staff they need 
to get that done and then to have a plan in place to go and 
hire that staff.
    Well, that works, unless you have an annual budget process 
that often results in appropriations bills not being passed for 
3 or 4 months into the year, which severely impacts an agency's 
ability to do that. So they are really doing it in reverse. 
They need to know how much money they have so they know how 
many they can hire. Then they define what work they can get 
done with the staff that they have.
    And to that I would add that OMB prevents agencies from 
requesting the staffing that they need, for the personnel they 
need to get the job done. Every year we go through this annual 
budget process with agencies defining what they need, and then 
OMB adjusts the request and does not let them move forward with 
the budget request that they need. And then, like I said, 
invariably then it is 3, 4, 5 months into the budget year 
anyway. And I talk to agencies that we represent every day of 
every year, and they tell me that they cannot move forward with 
their hiring plans until they know what their budget is, 
because we are in a CR or some other situation.
    So there are very real problems that are compounded by all 
the things we talked about, about the application process. But 
it really is a lot more than that.
    Senator Voinovich. Thank you, Mr. Chairman. Thank you very 
much.
    Senator Akaka. Well, I want to thank Senator Voinovich for 
his questions, and we are right on time. There is a signal that 
there are votes being called. We were expecting it at noon. But 
I want to tell you that we heard many good recommendations 
today on ways agencies can improve recruitment and hiring. We 
have heard from our second panel on their thoughts and 
recommendations as to what can and should happen.
    Agencies must make reforming the recruitment and hiring 
process a top priority, and some of you have indicated that the 
Congress needs to also take a step in the direction of working 
with agencies for some of these strategies to be put in place. 
The future of the Federal workforce, of course, is depending on 
this, and we are looking for answers.
    The hearing record will remain open for one week for 
Members to submit additional statements or questions. Senator 
Voinovich and I have been, as he mentioned, working on this for 
several years. We will continue to do so, and we may be taking 
some harder steps than we have had in the past because you have 
offered some recommendations that can help us do that. Of 
course, we are doing this for the Federal workforce. We want it 
to be the best in the country.
    So thank you very much for being part of this, and we look 
forward to working with you. This hearing is adjourned.
    [Whereupon, at 12:06 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T3085.001

[GRAPHIC] [TIFF OMITTED] T3085.002

[GRAPHIC] [TIFF OMITTED] T3085.003

[GRAPHIC] [TIFF OMITTED] T3085.004

[GRAPHIC] [TIFF OMITTED] T3085.005

[GRAPHIC] [TIFF OMITTED] T3085.006

[GRAPHIC] [TIFF OMITTED] T3085.007

[GRAPHIC] [TIFF OMITTED] T3085.008

[GRAPHIC] [TIFF OMITTED] T3085.009

[GRAPHIC] [TIFF OMITTED] T3085.010

[GRAPHIC] [TIFF OMITTED] T3085.011

[GRAPHIC] [TIFF OMITTED] T3085.012

[GRAPHIC] [TIFF OMITTED] T3085.013

[GRAPHIC] [TIFF OMITTED] T3085.014

[GRAPHIC] [TIFF OMITTED] T3085.015

[GRAPHIC] [TIFF OMITTED] T3085.016

[GRAPHIC] [TIFF OMITTED] T3085.017

[GRAPHIC] [TIFF OMITTED] T3085.018

[GRAPHIC] [TIFF OMITTED] T3085.019

[GRAPHIC] [TIFF OMITTED] T3085.020

[GRAPHIC] [TIFF OMITTED] T3085.021

[GRAPHIC] [TIFF OMITTED] T3085.022

[GRAPHIC] [TIFF OMITTED] T3085.023

[GRAPHIC] [TIFF OMITTED] T3085.024

[GRAPHIC] [TIFF OMITTED] T3085.025

[GRAPHIC] [TIFF OMITTED] T3085.026

[GRAPHIC] [TIFF OMITTED] T3085.027

[GRAPHIC] [TIFF OMITTED] T3085.028

[GRAPHIC] [TIFF OMITTED] T3085.029

[GRAPHIC] [TIFF OMITTED] T3085.030

[GRAPHIC] [TIFF OMITTED] T3085.031

[GRAPHIC] [TIFF OMITTED] T3085.032

[GRAPHIC] [TIFF OMITTED] T3085.033

[GRAPHIC] [TIFF OMITTED] T3085.034

[GRAPHIC] [TIFF OMITTED] T3085.035

[GRAPHIC] [TIFF OMITTED] T3085.036

[GRAPHIC] [TIFF OMITTED] T3085.037

[GRAPHIC] [TIFF OMITTED] T3085.038

[GRAPHIC] [TIFF OMITTED] T3085.039

[GRAPHIC] [TIFF OMITTED] T3085.040

[GRAPHIC] [TIFF OMITTED] T3085.041

[GRAPHIC] [TIFF OMITTED] T3085.042

[GRAPHIC] [TIFF OMITTED] T3085.043

[GRAPHIC] [TIFF OMITTED] T3085.044

[GRAPHIC] [TIFF OMITTED] T3085.045

[GRAPHIC] [TIFF OMITTED] T3085.046

[GRAPHIC] [TIFF OMITTED] T3085.047

[GRAPHIC] [TIFF OMITTED] T3085.048

[GRAPHIC] [TIFF OMITTED] T3085.049

[GRAPHIC] [TIFF OMITTED] T3085.050

[GRAPHIC] [TIFF OMITTED] T3085.051

[GRAPHIC] [TIFF OMITTED] T3085.052

[GRAPHIC] [TIFF OMITTED] T3085.053

[GRAPHIC] [TIFF OMITTED] T3085.054

[GRAPHIC] [TIFF OMITTED] T3085.055

[GRAPHIC] [TIFF OMITTED] T3085.056

[GRAPHIC] [TIFF OMITTED] T3085.057

[GRAPHIC] [TIFF OMITTED] T3085.058

[GRAPHIC] [TIFF OMITTED] T3085.059

[GRAPHIC] [TIFF OMITTED] T3085.060

[GRAPHIC] [TIFF OMITTED] T3085.061

[GRAPHIC] [TIFF OMITTED] T3085.062

[GRAPHIC] [TIFF OMITTED] T3085.063

[GRAPHIC] [TIFF OMITTED] T3085.064

[GRAPHIC] [TIFF OMITTED] T3085.065

[GRAPHIC] [TIFF OMITTED] T3085.066

[GRAPHIC] [TIFF OMITTED] T3085.067

[GRAPHIC] [TIFF OMITTED] T3085.068

[GRAPHIC] [TIFF OMITTED] T3085.069

[GRAPHIC] [TIFF OMITTED] T3085.070

[GRAPHIC] [TIFF OMITTED] T3085.071

[GRAPHIC] [TIFF OMITTED] T3085.072

[GRAPHIC] [TIFF OMITTED] T3085.073

[GRAPHIC] [TIFF OMITTED] T3085.074

[GRAPHIC] [TIFF OMITTED] T3085.075

[GRAPHIC] [TIFF OMITTED] T3085.076

[GRAPHIC] [TIFF OMITTED] T3085.077

[GRAPHIC] [TIFF OMITTED] T3085.078

[GRAPHIC] [TIFF OMITTED] T3085.079

[GRAPHIC] [TIFF OMITTED] T3085.080

[GRAPHIC] [TIFF OMITTED] T3085.081

[GRAPHIC] [TIFF OMITTED] T3085.082

[GRAPHIC] [TIFF OMITTED] T3085.083

[GRAPHIC] [TIFF OMITTED] T3085.084

[GRAPHIC] [TIFF OMITTED] T3085.085

[GRAPHIC] [TIFF OMITTED] T3085.086

[GRAPHIC] [TIFF OMITTED] T3085.087

[GRAPHIC] [TIFF OMITTED] T3085.088

[GRAPHIC] [TIFF OMITTED] T3085.089

[GRAPHIC] [TIFF OMITTED] T3085.090

[GRAPHIC] [TIFF OMITTED] T3085.091

[GRAPHIC] [TIFF OMITTED] T3085.092

[GRAPHIC] [TIFF OMITTED] T3085.093

[GRAPHIC] [TIFF OMITTED] T3085.094

[GRAPHIC] [TIFF OMITTED] T3085.095

[GRAPHIC] [TIFF OMITTED] T3085.096

[GRAPHIC] [TIFF OMITTED] T3085.097

[GRAPHIC] [TIFF OMITTED] T3085.098

[GRAPHIC] [TIFF OMITTED] T3085.099

[GRAPHIC] [TIFF OMITTED] T3085.100

[GRAPHIC] [TIFF OMITTED] T3085.101

[GRAPHIC] [TIFF OMITTED] T3085.102

[GRAPHIC] [TIFF OMITTED] T3085.103

[GRAPHIC] [TIFF OMITTED] T3085.104

[GRAPHIC] [TIFF OMITTED] T3085.105

[GRAPHIC] [TIFF OMITTED] T3085.106

[GRAPHIC] [TIFF OMITTED] T3085.107

[GRAPHIC] [TIFF OMITTED] T3085.108

[GRAPHIC] [TIFF OMITTED] T3085.109

[GRAPHIC] [TIFF OMITTED] T3085.110

[GRAPHIC] [TIFF OMITTED] T3085.111

[GRAPHIC] [TIFF OMITTED] T3085.112

[GRAPHIC] [TIFF OMITTED] T3085.113

[GRAPHIC] [TIFF OMITTED] T3085.114

[GRAPHIC] [TIFF OMITTED] T3085.115

[GRAPHIC] [TIFF OMITTED] T3085.116

[GRAPHIC] [TIFF OMITTED] T3085.117

[GRAPHIC] [TIFF OMITTED] T3085.118

                                 <all>

</pre></body></html>
